<html>
<title> - H.R. 5785, THE WARNING, ALERT, AND RESPONSE NETWORK ACT OF 2006 HEARING BEFORE THE SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET OF THE COMMITTEE ON ENERGY AND COMMERCE HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION JULY 20, 2006 Serial No. 109-125 Printed for the use of the Committee on Energy and Commerce Available via the World Wide Web: http://www.access.gpo.gov/congress/house U.S. GOVERNMENT PRINTING OFFICE 30-298 WASHINGTON : 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
               H.R. 5785, THE WARNING, ALERT, AND RESPONSE 
                                 NETWORK 
                               ACT OF 2006


                                 HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE 
                                INTERNET

                                 OF THE 

                         COMMITTEE ON ENERGY AND 
                                COMMERCE
                         HOUSE OF REPRESENTATIVES


                        ONE HUNDRED NINTH CONGRESS

                              SECOND SESSION


                              JULY 20, 2006

                            Serial No. 109-125

       Printed for the use of the Committee on Energy and Commerce



Available via the World Wide Web:  http://www.access.gpo.gov/congress/house


                    U.S. GOVERNMENT PRINTING OFFICE
30-298                      WASHINGTON : 2006
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 
512-1800 Fax: (202) 512-2250  Mail: Stop  SSOP, Washington, DC 20402-0001



                    COMMITTEE ON ENERGY AND COMMERCE
                       JOE BARTON, Texas, Chairman
RALPH M. HALL, Texas                      JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida                  Ranking Member
  Vice Chairman                           HENRY A. WAXMAN, California
FRED UPTON, Michigan                      EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                    RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                     EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                      FRANK PALLONE, JR., New Jersey
ED WHITFIELD, Kentucky                    SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia                  BART GORDON, Tennessee
BARBARA CUBIN, Wyoming                    BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois                    ANNA G. ESHOO, California
HEATHER WILSON, New Mexico                BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona                  ELIOT L. ENGEL, New York
CHARLES W. "CHIP" PICKERING,  Mississippi ALBERT R. WYNN, Maryland
  Vice Chairman                           GENE GREEN, Texas
VITO FOSSELLA, New York                   TED STRICKLAND, Ohio
ROY BLUNT, Missouri                       DIANA DEGETTE, Colorado
STEVE BUYER, Indiana                      LOIS CAPPS, California
GEORGE RADANOVICH, California             MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire            TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania             JIM DAVIS, Florida
MARY BONO, California                     JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                       HILDA L. SOLIS, California
LEE TERRY, Nebraska                       CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey                 JAY INSLEE, Washington
MIKE ROGERS, Michigan                     TAMMY BALDWIN, Wisconsin
C.L. "BUTCH" OTTER, Idaho                 MIKE ROSS, Arkansas                       
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                    BUD ALBRIGHT, Staff Director
                   DAVID CAVICKE, General Counsel
      REID P. F. STUNTZ, Minority Staff Director and Chief Counsel


         SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET
                   FRED UPTON, Michigan, Chairman
MICHAEL BILIRAKIS, Florida                EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                      Ranking Member
PAUL E. GILLMOR, Ohio                     ELIOT L. ENGEL, New York
ED WHITFIELD, Kentucky                    ALBERT R. WYNN, Maryland
BARBARA CUBIN, Wyoming                    MIKE DOYLE, Pennsylvania
JOHN SHIMKUS, Illinois                    CHARLES A. GONZALEZ, Texas
HEATHER WILSON, New Mexico                JAY INSLEE, Washington
CHARLES W. "CHIP" PICKERING,  Mississippi RICK BOUCHER, Virginia
VITO FOSSELLA, New York                   EDOLPHUS TOWNS, New York
GEORGE RADANOVICH, California             FRANK PALLONE, JR., New Jersey
CHARLES F. BASS, New Hampshire            SHERROD BROWN, Ohio
GREG WALDEN, Oregon                       BART GORDON, Tennessee
LEE TERRY, Nebraska                       BOBBY L. RUSH, Illinois
MIKE FERGUSON, New Jersey                 ANNA G. ESHOO, California
JOHN SULLIVAN, Oklahoma                   BART STUPAK, Michigan
MARSHA BLACKBURN, Tennessee               JOHN D. DINGELL, Michigan
JOE BARTON, Texas                           (EX OFFICIO)                            
  (EX OFFICIO)

                                CONTENTS


                                                                        Page
Testimony of:
        Knapp, Julius, Acting Chief, Office of Engineering and 
                Technology, Federal Communications Commission	         18
        Lawson, John, President and Chief Executive Officer, 
                Association of Public Television Stations	         30
        Guttman-McCabe, Vice President, Regulatory Affairs, 
                Cellular Telecommunications & Internet Association	 46
        Kelly, Vincent D., President and Chief Executive 
                Officer, USA Mobility, Inc.	                         52
        Pitts, Billy, President, Government Affairs, The NTI 
                Group, Inc.	                                         59
        Jackson, Sheriff Michael, Vice President, Maryland 
                Sheriffs' Association	                                 72
        Allen, Sara, Senior Radio Engineer, Ciara Enterprises, 
                Inc., on behalf of Prometheus Radio Project	         76

              H.R. 5785, THE WARNING, ALERT, AND RESPONSE 
                            NETWORK ACT OF 2006


                          THURSDAY, JULY 20, 2006

                         HOUSE OF REPRESENTATIVES,
                     COMMITTEE ON ENERGY AND COMMERCE,
          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET,
                                                            Washington, DC.


        The subcommittee met, pursuant to notice, at 10:10 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Fred 
Upton (Chairman) presiding.
	Members present:  Representatives Shimkus, Wilson, 
Pickering, Bass, Walden, Terry, Blackburn, Markey, Wynn, Inslee, 
Eshoo, Stupak, and Upton.
	Staff present:  Howard Waltzman, Majority Chief Counsel for 
Telecommunications and the Internet; Kelly Cole, Counsel; Anh 
Nguyen, Legislative Clerk; Johanna Shelton, Minority Counsel; 
and David Vogel, Minority Research Assistant.
	MR. UPTON.  Good morning.  Today we are holding a 
legislative hearing on H.R. 5785, the Warning, Alert, and 
Response Network Act, also known as the WARN Act.  I want to 
in particular, thank Mr. Shimkus and Mr. Wynn for introducing 
this bipartisan legislation and for facilitating discussion of such 
critical importance on our Nation's emergency alert systems.  
As we experience technological breakthroughs on a near daily 
basis, there is no question that our emergency alert system should 
also employ the growing technologies of the 21st Century.  But as 
we saw on 9/11 and during Hurricane Katrina, there do exist many 
shortcomings in our current alert system.  
The first national alert system was first employed in 1951 by 
President Truman, establishing a network that would later become 
the Emergency Broadcast System to provide the President with a 
direct means to directly communicate with the public over the 
radio in times of national emergency.
	While much has changed during the days of Harry Truman, the 
alert system has only expanded to analog radio and television 
stations as well as wired and wireless cable TV systems.  
However, in October of 2005, the FCC expanded the 
obligations to direct broadcast satellite, digital TV, digital cable, 
satellite digital audio radio, and digital audio broadcasting services.  
The 2005 rules go into effect this December 31, except for the 
direct broadcast satellite rules, which take effect on May 31, 2007.  
This is a very important step for our national alert system, but with 
burgeoning technologies, it seems that more can be done to ensure 
a greater blanket of coverage for the alert systems.  
I applaud the WARN Act for looking at the wireless industry to 
help bolster our alert system.  With nearly 200 million Americans 
carrying cell phones and other wireless devices it seems only 
natural to also look to the wireless industry to help communicate in 
times of emergencies.  
This is a priority for the Bush Administration as well, as he 
issued an executive order just 3-1/2 weeks ago declaring that U.S. 
policy is "to have an effective, reliable, integrated, flexible, and 
comprehensive system to alert and warn the American people."
	What we must strive for is an emergency system that leaves no 
one behind.  I look forward to hearing from our distinguished panel 
of witnesses to hear how they believe that we can better improve 
our emergency alert system from coast to coast, ensuring that folks 
in major urban areas, as well as small rural communities are all 
notified in times of emergency.  
Again, I want to thank Mr. Shimkus and Mr. Wynn for 
introducing this bill and bringing the important issue to the 
forefront.  This literally is a matter of life and death.  Thank you.  I 
yield to the Ranking Member of the subcommittee, my friend, Mr. 
Markey.
	[The prepared statement of Hon. Fred Upton follows:]

PREPARED STATEMENT OF THE HON. FRED UPTON, CHAIRMAN, 
SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

        Good morning.  Today we are holding a legislative hearing on 
H.R. 5785, the "Warning, Alert, and Response Network Act," also 
known as the WARN Act.  I thank Mr. Shimkus and Mr. Wynn for 
introducing this legislation and for facilitating a discussion of such 
critical importance on our nation's emergency alert system.
        As we experience technological breakthroughs on a near daily 
basis, there is no question that our emergency alert system should 
also employ the growing technologies of the 21st century.  But as 
we saw on 9/11 and during Hurricane Katrina, there do exist 
shortcomings in our current alert system.
        The first national alert system was first employed in 1951 by 
President Truman, establishing a network that would later become 
the "Emergency Broadcast System" to provide the President with a 
direct means to directly communicate with the public over the 
radio in times of national emergency.  
        While much has changed since the days of Harry Truman, the 
alert system has only expanded to analog radio and television 
stations, as well as wired and wireless cable television systems.  
        However, in October 2005, the FCC expanded the obligations 
to direct broadcast satellite, digital television, digital cable, satellite 
digital audio radio, and digital audio broadcasting services.  The 
2005 rules go into effect December 31, 2006, except for the direct 
broadcast satellite rules, which take effect on May 31, 2007.  This 
is a very important step for our national alert system, but with 
burgeoning technologies, it seems that more can be done to ensure 
a greater blanket of coverage for the alert systems.
        I applaud the WARN Act for looking at the wireless industry to 
help bolster our alert system.  With nearly 200 million American 
carrying cell phones and other wireless devices, it seems only 
natural to also look to the wireless industry to help communicate in 
times of emergencies.  
        This is a priority for President Bush as well, as he issued an 
executive order just three and a half weeks ago, declaring U.S. 
policy is "to have an effective, reliable, integrated, flexible, and 
comprehensive system to alert and warn the American people."  
        What we must strive for is an emergency system that leaves no 
one behind.  I look forward to hearing from our distinguished panel 
of witnesses to hear how they believe that we can better improve 
our emergency alert system from coast to coast, ensuring that folks 
in major urban areas as well as small rural communities are all 
notified in times of emergency.  
        Again, I thank Mr. Wynn and Mr. Shimkus for introducing the 
WARN Act and bringing this important issue to the forefront.  
        This is literally a matter of life and death.
        Thank you.

	MR. MARKEY.  Thank you, Mr. Chairman.  I would like to 
commend you for calling this hearing this morning on emergency 
alert systems.  As we are in the midst of hurricane season and 
coming up on the fifth anniversary of 9/11, it is appropriate that we 
analyze and examine proposals to enhance warnings for citizens 
when danger is imminent.  President Harry S. Truman established 
in 1951 the first national alert system called CONELRAD, which 
stands for control of electromagnetic radiation.  This system was 
used amongst other things to prepare young children such as 
myself in the 1950s to deal with a nuclear attack from the Soviet 
Union.
	At 640 and 1240 on your dial about once every 3 to 4 months 
the nuns at the Immaculate Conception grammar school would turn 
on that radio, as we had a coordinated system, and initially we all 
used to just put ourselves under our desks to protect ourselves 
against a nuclear blast.  And then it was decided we would be 
better off if all 1,300 boys made it to the basement walking very 
swiftly but not running so we could get into the basement, all of us, 
within 2 minutes as the CONELRAD warning went on.
	I can say this.  CONELRAD worked to the extent to which we 
were all in the basement.  I am not sure it worked in terms of 
protecting us against the effects of a nuclear blast but that was just 
a misperception that our leaders had, but on this one they had a 
good idea.  The system evolved into the Emergency Broadcast 
System and later into the Emergency Alert System or EAS.
	The EAS provides the President with the ability to address the 
American people in the event of a national emergency.  It vests 
sole responsibility to determine when the system is activated at the 
national level to the President, and the President has delegated this 
authority to the director of the Federal Emergency Management 
Agency.  Although the EAS was developed and implemented with 
the notion that it would transmit presidential messages in times of 
national crisi,s the EAS has never been activated for a national 
presidential message.  Many significant emergencies potentially 
afflicting millions of citizens are more localized and occur at the 
State or regional level.
	Moreover, since the EAS system was developed America's 
telecommunications infrastructure has changed.  We no longer rely 
upon broadcast television and radio for information as we did in 
previous decades.  We now have cable television, satellite radio, 
the Internet, e-mail, pagers, and over 200 million wireless 
subscribers across the country using wireless phones and all sorts 
of wireless gadgets.  These devices and communication systems 
provide our nation with multiple means to reach people in 
emergencies whether they are at home watching TV, listening to 
the radio, online, in their car, at their office or walking down the 
street.  The Administration has begun an initiative to explore the 
use of the public broadcasting system and digital technology to 
provide alerts across various media and communication systems 
including wireless devices.
	In addition, the FCC is currently working on a proceeding that 
could wind up mandating that wireless providers implement new 
alert technology.  The wireless industry has raised some concerns 
about the feasibility of blasting out alerts simultaneously to a 
specific geographic area.  They have also noted the cost of 
upgrades to existing networks and the prospect of swapping out 
consumer hand sets at significant cost and suggest that the FCC's 
action could constitute an unfunded mandate.
	On the other hand, it is clear that the Administration is 
prepared to fund the public broadcast project, and the budget 
passed earlier this year included over $100 million for this type of 
system, and also a tsunami warning system.  The House 
Republicans, however, in the Appropriations Committee several 
weeks ago zeroed out the funding for infrastructure that public 
broadcasts will rely on to make this new digital Emergency Alert 
System functional.  So it is obvious those members didn't get the 
same policy alert message the President was sending.
	And I think we need an over-arching plan here.  Again, this is 
supposed to be an alert system for occasions requiring immediate 
public response and action.  As a result, I think it is appropriate to 
revisit the voluntary nature of some pending proposals.  As bad as 
an unfunded mandate would be, it seems equally problematic to 
spend potentially hundreds of millions of dollars of taxpayer 
money on a new alert system and a new office in the Government 
somewhere to administer it and then indicate to industry that they 
don't have to use it.
	This would represent a funded, non-mandate, the worst of all 
situations.  Finally, as we continue to look into these issues and 
consider any legislative proposals, we also need to look closely at 
the method for extending credentials to officials permitted to use 
the system, the criteria for what constitutes an appropriate 
emergency message, and location and operation of any 
administrative entity at the national or regional level and the 
relationship this system will have with other pre-existing 
complimentary alert or warning systems.  Again, Mr. Chairman, 
this is a very important subject, and I thank you for having the 
hearing.
	MR. UPTON.  Mr. Shimkus.
	MR. SHIMKUS.  Thank you, Mr. Chairman.  Thank you for 
holding this hearing.  I want to thank my good friend, Albert 
Wynn, for his help on this piece of legislation, along with original 
co-sponsors Mary Bono, George Radanovich, Eliot Engel, and 
Chip Pickering.  And I think that is a good start.  This legislative 
hearing is important to flush out a lot of the questions and see 
where we are at.  I have had a lot of good comments from folks 
coming in upon the dropping of the bill.  I am very optimistic that 
it will move us in a better direction than we are.
	Currently, and as was called upon by the Katrina report, which 
said we've got to do a better job, there is a lot of technology out 
there, there are a lot of capabilities.  So the real debate is how do 
you expedite the process, how do you move us forward without 
doing great harm and slowing up the process, and I think we have 
reached a pretty good balance.  We want to make sure that, one, it 
is used and it is used appropriately.  We want to make sure that 
those who make those decisions have been well trained to make 
sure that so you don't get the cry wolf syndrome and people just 
disregard the alerts.
	I look forward to hearing your comments as to how we are 
successfully doing that or maybe there are possible improvements 
to make sure that we can move effectively as possible.  Last night 
tornados went through St. Louis, Missouri.  I live 15 minutes from 
St. Louis.  Lacey Clay, my good friend, just came in and his St. 
Louis home was out of power until 4:00 a.m.  Parts of my district 
were left--I mean there is some damage but nothing major.
	But the article from the Springfield paper says such was not the 
case in St. Louis where a section of the roof at Lambert St. Louis 
International Airport was ripped off, and the windows were 
knocked out of a rooftop restaurant.  Three people were reported 
injured when a building collapsed in south central St. Louis.  This 
is why we are here.  Major events that at least we can get people 
warned and it is coming down the pike, we ought to use all the 
technology available.  And we should not hinder new technological 
development by dictating what that technology should be.
	So, Mr. Chairman, thank you for the hearing, and I look 
forward to working with you to move the bill forward.
	MR. UPTON.  Well, I just want to say to the gentleman from 
Illinois that I know he is a diehard Cardinal fan despite being from 
the State of Illinois, and as I understand the turf was ripped up at 
the Cardinal game last night.  All the windows of the press box 
were blown out.  It was pretty serious trouble.  I want to at this 
point put in by unanimous consent an opening statement by Mary 
Bono into the record, and would yield now to Mr. Wynn for an 
opening statement.
	[The prepared statement of Hon. Mary Bono follows:]

THE PREPARED STATEMENT OF THE HON. MARY BONO, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA

        Chairman Upton and Ranking Member Markey, good morning 
and thank you for holding this hearing today.  Additionally, I 
would like to welcome our witnesses and thank them for 
participating in this important hearing on H.R. 5785, the "Warning, 
Alert, and Response Network Act of 2006."
        As a representative of a district prone to natural disasters, like 
earthquakes, fires and floods I am proud to be an original co-
sponsor of the WARN Act.  If enacted, this legislation would serve 
to help us better utilize our national communications capabilities 
for the increased safety of our citizens.  This bi-partisan bill, co-
sponsored by several members of the Energy and Commerce 
Committee, is designed to ensure the transmission of alerts across 
a broad variety of communication technologies, including wireless 
communications devices such as cell phones and PDAs, the 
Internet, television and radio, and other communications resources 
available in the United States.  This important step towards 
improving the safety of our citizens is within our reach.
        I think it is important to note that this legislation parallels the 
recommendations of the FCC's Independent Panel Reviewing the 
Impact of Hurricane Katrina on Communications Networks and an 
Executive Order issue by President Bush this past June.  One of the 
findings of the FCC Independent Panel was "the use of 
communications networks to disseminate reliable emergency 
information to the public is critical - before, during and after such 
events."  The Panel also found that our current emergency alert 
system is not where it needs to be.  The Panel's dual emphasis on 
the alert and instruction is an important aspect of this bill.
        Additionally, in President Bush's Executive Order issued in 
June he stated that the United States policy is "to have an effective, 
reliable, integrated, flexible, and comprehensive system to alert 
and warn the American people..."  The WARN Act supports both 
of these notions.
        To bring this matter closer to home, I recently co-hosted a 
roundtable discussion in my district with Congressman Ken 
Calvert.  At that roundtable, we discussed preparedness, 
coordination and the response of the federal, state, tribal, and local 
government efforts in the event of a natural or man-made disaster.  
While there were many topics discussed at the roundtable, the 
issue of providing citizens with information was discussed at 
length.  It is perfectly clear that the greater the number of 
communications technologies used to spread alerts and 
instructions, the greater the reach into the public important 
messages will have.  The wisdom of this bill is that it recognizes 
both the value of information itself and the importance of granting 
citizens access to information. 
        As we are all well aware, the ability to alert and instruct 
citizens before, during, and after the occurrence of a disaster is 
essential to the public's safety.  An emergency alert system that has 
the capability to warn citizens of danger and provide them with 
instructions on how to secure themselves and their families has the 
potential to be the difference between life and death.
	I would like to once again thank the Chairman and the Ranking 
Member for holding this hearing and would urge further action on 
this important legislation.
Thank you and I yield back.

	MR. WYNN.  Thank you very much, Mr. Chairman.  I would 
like to thank you for holding this very important hearing on H.R. 
5785, the Warning, Alert and Response Network, WARN Act.  I 
would like to begin by thanking my colleague, Congressman 
Shimkus, for his leadership on this issue.  He has done a great job, 
and I want to thank him for allowing me to be a co-sponsor on this 
measure.  I think it is a very important piece of legislation.  He just 
left, but I also wanted to thank my colleague, Mr. Markey, for 
bringing back nostalgic memories of an innocent time when we 
thought that hiding under a wooden desk would save us from a 
nuclear attack.
	Also, finally I would like to recognize my good friend and a 
true first responder, Sheriff Michael Jackson, from Prince George's 
County.  He has been extremely diligent in providing an effective 
voice for law enforcement in Prince George's County, and I would 
also mention that he is an incoming chair of the legislative 
committee of the Maryland Sheriffs' Association.  As a Member of 
Congress whose district is in close proximity to Washington, D.C., 
a prime target for terrorism, I am particularly concerned about 
having an effective alert system.  On September 11, 30 of my 
constituents were killed in the attacks.  Many congressional staff 
and the largest number of Federal workers in the country, 70,000, 
reside in my district in Prince George's and Montgomery Counties.
	Currently, the Emergency Alert System provides emergency 
warnings only for television and radio broadcast.  Unfortunately, 
the system has not kept pace with our increasingly mobile and 
wireless society.  The WARN Act would establish a network for 
the transmission of alerts through numerous methods of 
communication technologies including wireless communication 
devices such as cell phones and Blackberries, the Internet, digital, 
analog, cable, satellite television, and satellite and analog radio, as 
well as non-traditional media such as a public warning siren.
	The WARN Act creates a voluntary national alert system to 
provide the public with a reliable communication system capable 
of warning the public in the event of a catastrophic event.  An 
important aspect of this bill is that it establishes a national alert 
system working group which will bring together all parties to 
establish a reliable, comprehensive approach, implementing a 
wide-scale emergency alert communication system.
	We need this input from the folks on the ground.  The bill will 
provide Federal, State, and local emergency managers with a tool 
to input alerts into the system and have them directed out to a 
geographically targeted section of the population as necessary.  
The White House Katrina report recommended that we should 
employ all available 21st Century technologies both to update and 
utilize the National Emergency Alert system in order to provide the 
general public with advanced notification and instructions for 
disasters and emergencies.  This bill builds on that 
recommendation.
	I believe it remains our goal to develop and maintain a 
comprehensive emergency management program.  Through 
planning with Federal, State, and local officials and the private 
sector, I am certain that we can develop a coordinated safety and 
preparedness strategy to protect life, property, and the environment 
from the effects of both natural and man-made disasters, including 
terrorist acts.  I look forward to hearing from our witnesses today, 
and again, Mr. Chairman, thank you for holding this very 
important hearing.
	[The prepared statement of Hon. Albert R. Wynn follows:]

THE PREPARED STATEMENT OF THE HON. ALBERT R. WYNN, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF MARYLAND

        Mr. Chairman, Members of the Committee, I would like to 
thank you for holding this important hearing on H.R. 5785, the 
Warning, Alert, and Response (WARN) Act.  I would like to thank 
my colleague, Congressman Shimkus for his leadership and 
allowing me to co-sponsor this bill.  I would also like to take this 
opportunity to recognize one of our witnesses, Sheriff Michael 
Jackson from Prince George's County, a true first responder.  
Sheriff Jackson has been extremely diligent in helping to provide 
effective voice in law enforcement for Prince George's County.  
        As a Member of Congress whose district is in close proximity 
to Washington, D.C.- a prime target - I am particularly concerned 
about an effective alerts system.  On 9/11, thirty of my constituents 
were killed in the attacks.  Many Congressional staff and the 
largest number of federal workers in the country, over 70,000 
reside in my district - Prince George's and Montgomery 
Counties.  As evidenced by 9/11 and Hurricanes Katrina and Rita, 
we need to dramatically upgrade our communications network.  
        Currently, the Emergency Alert System provides emergency 
warnings only for television and radio broadcast.  Unfortunately 
this system has not kept pace with our increasingly mobile and 
wireless society.  The WARN Act will establish a network for the 
transmission of alerts through numerous methods of 
communication technologies, including wireless communication 
devices (cell phones, black berries, etc.), the Internet, digital, 
analog, cable, satellite television, and satellite and analog radio, as 
well as non-traditional media such as public warning sirens.
        The WARN Act creates a voluntary National Alert System to 
provide the public with a reliable communications system capable 
of warning the public in the event of a catastrophic event.  An 
important aspect of this bill is that it establishes a National Alert 
System Working Group, which will bring together all parties to 
establish a reliable, comprehensive approach to implementing a 
wide-scale emergency alert communications system.  The bill will 
also provide federal, state and local emergency managers with a 
tool to input alerts into the system and have them directed out to a 
geographically targeted section of the population.  
        The White House Katrina report recommended that we should 
"Employ all available 21st Century technologies both to update 
and utilize the national Emergency Alert System in order to 
provide the general public with advanced notification of and 
instruction for disaster and emergencies."  This bill builds on that 
recommendation.  
        It remains our goal to develop and maintain a comprehensive 
emergency management program.  Through planning with federal, 
state and local official, and the private sector, I am certain that we 
can develop a coordinated safety and preparedness strategy to 
protect life, property, and the environment from the effects of 
natural and man-made disasters, including terrorist acts.  I look 
forward to hearing from the panelists today. 

	MR. UPTON.  Thank you again for your sponsorship.  Mr. 
Terry.
	MR. TERRY.  Thank you, Mr. Chairman, and first of all thank 
you for holding this hearing, and thank you to my two colleagues 
for drafting what I think is a creative and important piece of 
legislation to implement what the authors of this legislation intend 
and grasping--getting our arms around a variety of technologies 
out there in a creative way of alerting people of imminent danger.  
This technology, frankly, exists in the commercial markets today 
and is implemented by large corporations.  I represent Omaha, 
Nebraska, which is a telecommunications services center.  
Unfortunately, missing in our very esteemed blue ribbon panel 
here today are the companies that are already doing this large 
scale.
	For example, some executives from a teleservices company, 
one of the top three in the Nation, Citel International, told me 
about the technology that they are trying to implement one on one 
with county emergency services around the country as the ability 
to reach out and call several hundred thousand people with a 
recorded message warning them of an imminent danger.  They can 
do that right now.  I mean that is their business and they have the 
software.  It is just a matter of who wants that type of service.  
They can hone in the message, so if you are reaching in Omaha, 
for example, a Hispanic household that is Spanish-speaking, they 
can have a warning that is in Spanish or for the 9,000 Sudanese 
they can break it up into three different dialects.  That technology 
already exists.
	And they can have a recorded message saying this is the 
danger, this is what you need to do.  If it is like in New Orleans to 
evacuate the message can even tell them which routes their part of 
the city has to use.  It can actually determine or they can pre-
determine, for example, if there is a disabled person with no 
transportation that would then alert the authorities that this person 
is on a list to need extra help in case of an evacuation.  This 
already exists out there so it is a matter of, I think, clueing in our, 
frankly, Federal government and local governments that this exists, 
but I think this is creative.  Not only can they telephone your house 
but they can send it to your PDA, your Blackberry with e-mail 
messages.
	So it exists out there today.  I think we just need to make sure 
that we have a comprehensive plan where this technology that 
already exists out there is brought into our national emergency 
preparedness plans driven down of course to the very local levels.  
So I am very pleased to be part of the hearing.  Thanks to all of our 
witnesses here, and I think the authors of this legislation, Mr. 
Shimkus and Mr. Wynn, have done a great service to our country.
	MR. UPTON.  Ms. Eshoo.
	MS. ESHOO.  Thank you, Mr. Chairman, for holding this 
hearing, and I want to salute my friend, John Shimkus, and his co-
sponsors for writing the bill.  He is always thoughtful in these 
areas.  I know firsthand because we have worked closely together 
as the co-chairs of the House E911 caucus.  
I think it is more than appropriate that we consider emergency 
warning systems so that we can take advantage of modern 
communications and weave this through our entire 
communications system.
	Very often a good idea just makes so much sense we think, 
well, why didn't we do this before?  I think that this legislation 
bears that imprimatur.  Regardless of where an individual is or 
what kind of media they may be using, everyone in the country 
should be able to receive in the most timely way any kind of urgent 
communications relative to their public safety.  We know that we 
are challenged by natural disasters.  We know that there are human 
made, I don't want to say man made, human made accidents, and 
then what has been visited upon our country, acts of terror.
	We have the capacity to do this, and we have, I think, the finest 
partners in the private sector that will help to implement this.  But 
what public policy is about is shaping the direction, having the 
vision, working with the partners, and I have no doubt that we can 
accomplish this.   
I am going to slip in here, you would be surprised if I didn't, 
that the Congress still has to fund the ENHANCE 911 Act.  If in 
fact we are going to have really a ubiquitous system in the country, 
the funding of that I think is really essential.
	I think most members would still be surprised, certainly the 
American people would be, to know that when millions of people 
call 911 that the operators still in so many areas really do not know 
where that call is coming from.  If you don't know where the call is 
coming from then you can't get help to the person that is calling.  
That kind of identification I think is absolutely essential.  So there 
are many of us that are still in the trenches trying to make this a 
reality in our country, and to those of you that have helped with it, 
I say thank you to you.  We still need your help because the 
implementation of this important effort in our country has not yet 
been realized.
	I don't think Mr. Bilirakis is here, but we have a bill together, 
the Calling for 211 Act, that also fits in with part of the effort that 
is on the table today.  
So I look forward to hearing from the witnesses.  I want to 
thank you for all the work that you have done and what you will 
do.  And again my congratulations to the sponsors, and thank you, 
Mr. Chairman, for having the hearing.
	MR. UPTON.  Mr. Pickering.
	MR. PICKERING.  Mr. Chairman, I want to thank you for 
holding this hearing.  I do commend Congressmen Shimkus and 
Wynn for their leadership on this issue.  I look forward to hearing 
the panel.  I do think as our region, my State, recover from Katrina 
that these types of efforts are critically important as we prepare for 
future storms and disasters.  I think that this is the right approach 
and the working group that will help all parties, all stakeholders, 
resolve the different set of standards and come up with appropriate 
ways to implement these objectives is the right way to go.
	I look forward to hearing the panel, and, Mr. Chairman, thank 
you for holding this hearing.
	MR. UPTON.  Mr. Stupak.
	MR. STUPAK.  Thank you, Mr. Chairman, and thanks for 
holding this hearing.  This subcommittee has a strong record of 
advancing our Nation's public safety and emergency 
communications.  However, it could be stronger if you would just 
at least allow a hearing on my legislation of public safety 
interoperability trust fund.  No response.  Okay.  The legislation 
before us today, H.R. 5785, the Warning, Alert and Response 
Network Act or WARN Act, will continue in the tradition of this 
subcommittee.  As a former law enforcement officer I know how 
important it is that our citizens are well informed and have clear 
direction in the case of emergency.
	Out Nation's Emergency Alert System has no doubt saved 
thousands of lives by giving citizens direction ahead of severe 
storms.  We learned during Hurricane Katrina that emergency 
broadcast communications can play a vital role after the storm has 
passed.  That is why the efforts of the Federal Communications 
Commission, industry, and the public safety community to 
modernize emergency alert systems are so important.  People have 
more ways then ever before to be and remain connected.  
Blackberries, pagers, cell phones, satellite radio, digital radio, and 
televisions are all new technologies that can and should be 
harnessed to ensure that people stay informed before, during and 
after emergencies.
	I commend the FCC for beginning the proceeding to look for 
ways to expand the Emergency Alert System to these new 
technologies.  I commend Mr. Shimkus and Mr. Wynn for 
introducing the WARN Act to help us further this effort.  Mr. 
Shimkus and Mr. Wynn's legislation will ensure that there is 
appropriate redundancy in interoperability in these emergency alert 
efforts.  I also want to note that just as important as emergency 
communications with the public is emergency communications 
between the first responders, which is just as important if not more 
important.
	We are already billions of dollars and years behind where this 
country should be in terms of investing in a fully interoperable 
public safety communication system.  However, we can solve this 
problem if the committee once again would have hearings and 
enact a dedicated funding mechanism for emergency 
communications which would then fund interoperability public 
safety communications, E911, and emergency alerts.  I have 
introduced such a bill, as I mentioned earlier, that would dedicate a 
portion of spectrum sales to a public safety interoperability trust 
fund.
	Last year the committee, drawing from my legislation, created 
a trust fund and made a billion dollar deposit from the DTV 
auction proceeds, but a billion dollars we all know is a mere drop 
in the bucket.  This committee should now enact legislation to 
ensure that the country continues to invest in public safety 
communications by creating a secure dedicated funding source 
from the trust fund.  Finally, I would like to thank our witnesses 
for coming today to give us their perspective on this legislation.  I 
would especially like to thank Sheriff Michael Jackson, Prince 
George's County, Maryland, who will tell us a lot about the 
realities first responders face on the ground.  With that, Mr. 
Chairman, I will yield back my time.  Thank you.
	MR. UPTON.  Mr. Bass.
	MR. BASS.  Thank you, Mr. Chairman.  As our distinguished 
Ranking Member of the committee says on many occasions, I have 
a splendid statement that I would like with your permission to 
submit for the record.  Thank you for having this hearing today.  
Much of what is in this statement has been covered by others, and I 
yield back.
	[The prepared statement of Hon. Charles F. Bass follows:]

THE PREPARED STATEMENT OF THE HON. CHARLES F. BASS, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
HAMPSHIRE

        Thank you Chairman Upton and thank you to the witnesses for 
being here today and I look forward to hearing your testimony.
        During the Cold War and the proliferation of the atomic bomb, 
the U.S. created the CONELRAD (Control of Electromagnetic 
Radiation) which later evolved into Emergency Alert System 
(EAS) for cases of a national emergency.  This system was created 
so the President could communicate to as many Americans as 
possible in a time of crisis to provide assurance and information.  
Fortunately, the system has never been needed to be used in such a 
scenario.  
        Since that time, the EAS has evolved with broadcasters and 
cable systems voluntarily working with state and local agencies to 
use the existing system to communicate local emergency messages 
- such as tornadoes, hurricanes, Amber Alerts, and other 
emergencies.  These have often been successful in getting critical 
information to citizens, but as we saw with larger disasters such as 
9/11 and Hurricane Katrina there is room to improve.  
        It is important to point out that the nature of the threat has 
changed since 1951 -to one of terrorist attacking localities or 
regions - as well as the technology available to people to 
communicate. Almost -if not everyone in this room has at least a 
cell phone, pager, blackberry, or other communication devise on 
them right now. This was unimaginable at the time we first created 
this emergency system and thus these changes should be reflected 
in any emergency system.  
        These various devices make it easier for people to get 
information wherever they are located even when phone, cable, 
and electric lines are down.  Some parents are even providing their 
children with cell phones or pagers so they can communicate to 
them in time of emergency.  Information is the best defense in any 
emergency and H.R. 5785 takes us the next step in taking 
advantage of the new technologies available to the industry and 
citizens so there is no issue of interoperability with citizens as well 
as first responders getting necessary information.
        The ability to communicate to the public with an authoritative 
source is critical to citizens to know what is happening and how to 
respond in a timely manner. If that communication breaks down - 
it can lead to loss of life. As we saw with Tsunami, the lack of 
warning to people resulted in lost of thousands of lives. In New 
Orleans and other places in the Gulf, lack of clear information 
caused confusion for many of the evacuees in the Gulf region - as 
well as amongst those that were there assisting the evacuation and 
recovery process. Misinformation from various sources caused 
confusion during evacuation. Even in my state of New Hampshire, 
we have had two massive floods causing many citizens to evacuate 
their homes and communities. Some of these towns are very rural 
and evacuation was made difficult by the flooding out of roads and 
bridges- sometimes the only way to leave their homes.  The ability 
to communicate to citizens in a certain area of roads washed out 
and alternate routes would help many of our communities. 
        I am pleased to see so many stakeholders eager to work 
together on expanding our emergency communication system and 
again I thank you for being here.

	MR. UPTON.  I look forward to reading that splendid statement.
	MR. BASS.  I also want to commend the Chairman.  I do not see 
anybody from Michigan on this panel.  Unusual.
	MR. UPTON.  I will come back with something in a moment.  
Ms. Wilson.
	MS. WILSON.  Thank you, Mr. Chairman.  Thank you for 
holding this hearing.  I also wanted to commend my colleagues, 
Mr. Wynn and Mr. Shimkus, for their leadership on this issue.  
Most of us remember as kids on Saturdays usually at lunch time, at 
least it was in my hometown, where they sent that tone over the 
radio and it said this was a test, this is only a test of the emergency 
broadcast system.  All of us are used to seeing on the--hearing on 
the radio and then seeing the crawler on the television that there is 
a flash flood warning or a fire warning or those kinds of things on 
television and radio, but we need to get beyond that to new modes 
of communication, whether it is the Blackberry we carry around on 
our hips or cell phones or Internet.
	And we have already started to see that in a voluntary way with 
something called the Amber Alert where we are using the 
emergency broadcast system to alert people in communities about 
children who might have been abducted.  But certain online 
services like America Online have started using those Amber 
Alerts and putting them out to their members on America Online 
so there are possibilities here to expand our emergency 
notifications and use new technologies to get information to people 
when they need it most.  So I look forward to this hearing, hearing 
about how the pilot project has worked, what we have learned, 
what we need to do better, and what legislation might be required.  
Thank you, Mr. Chairman.
	MR. UPTON.  Mrs. Blackburn.
	MRS. BLACKBURN.  I will waive an opening statement.  I do 
want to welcome our witnesses today and thank them for being 
here, and we are looking forward to some good questions.
	[Additional statement submitted for the record follows:]

PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, 
COMMITTEE ON ENERGY AND COMMERCE

        Thank you, Mr. Chairman, for holding this hearing today on 
the "Warning, Alert, and Response Network Act," known as the 
WARN Act.  This is an important public debate, and it is time we 
start considering the value of advancements in communications 
and the role that such advancements can play in emergency alerts.
        Events like 9/11 and Hurricane Katrina made having a vibrant 
and robust emergency alert system a priority.  In the chaos of a 
general emergency, people must have a reliable way to receive 
information about what has happened and get instructions about 
what to do.  
        We have come a long way since 1951 when President Truman 
established the first alert system.  Those were the days when 
television was just arriving and a long-distance phone call was an 
event in the life of a family.  Today, we live in a culture of 
mobility, where most of us have access to the Internet, millions 
have cellphones and many carry data devices like BlackBerrys and 
Treos. With 200 million people in this country carrying wireless 
devices, it makes sense that when the government needs to alert the 
public about emergencies, the best way is to get their attention is 
through the communications devices they carry on them.  
        In fact, one of the recommendations coming from the White 
House Katrina Report was that the U.S. should "employ all 
available 21st century technologies both to update and utilize the 
national Emergency Alert System in order to provide the general 
public with advanced notification of and instruction for disasters 
and emergencies."
        The WARN Act, introduced by Reps. Shimkus and Wynn, will 
create a National Alert System so that anybody with a 
communications device can be warned.  The WARN Act will 
enable emergency alerts to be transmitted over a broad range of 
technologies, including broadcast and cable, whether digital or 
analog, mobile phones, BlackBerrys, and satellite television and 
radio.  And, importantly, the WARN Act requires the creation of a 
Working Group made up of government officials and experts in 
industry and public safety.  With the input of all interested parties, 
we can create a vibrant emergency alert system that is consistent, 
redundant, and, most importantly, reliable.
        I understand that there is a great deal of activity going on in the 
emergency alert space.  As we will hear today, the Federal 
Communications Commission is currently examining this issue in 
light of their work with the Emergency Alert System.  The 
Association of Public Television Stations has been working on 
pilot projects using the existing public broadcasting infrastructure 
to transmit emergency alerts.  I am anxious to learn more about 
these projects and how they fit into the WARN Act work we are 
doing today.
        I thank Representatives Shimkus and Wynn for their good 
work on this bill, and the Chairman for holding this hearing.  I 
yield back.

	MR. UPTON.  That concludes the opening statements from the 
members.  We are delighted with the panel that we have 
assembled, and I am sure that someone will talk about their roots 
to Michigan along the way.  We are joined by Mr. Julius Knapp, 
Acting Chief of the Office of Engineering and Technology from 
the Federal Communications Commission; Mr. John Lawson, 
President and CEO of the Association of Public TV Stations; Mr. 
Christopher Guttman-McCabe, Vice President of Regulatory 
Affairs, Cellular Telecommunications and Internet Association; 
Mr. Vincent Kelly, President and Chief Executive Officer of USA 
Mobility; Mr. Billy Pitts, President, Government Affairs, NTI 
Group, here in Washington, D.C.; Sheriff Michael Jackson, Vice 
President of the Maryland Sheriffs' Association; Ms. Sara Allen, 
Senior Radio Engineer for Ciara Enterprises on behalf of the 
Prometheus Radio Project.
	Welcome all of you.  We appreciate that your statements came 
up at the deadline, and they are made part of the record in their 
entirety, and we would like you to take no more than 5 minutes to 
summarize your statement, at which point we will then ask 
questions from our panel here.  Mr. Knapp, we will start with you.  
Welcome.  Good to see you.

STATEMENTS OF JULIUS KNAPP, ACTING CHIEF, OFFICE OF ENGINEERING AND 
TECHNOLOGY, FEDERAL COMMUNICATIONS COMMISSION; JOHN LAWSON, 
PRESIDENT AND CHIEF EXECUTIVE OFFICER, ASSOCIATION OF PUBLIC TELEVISION 
STATIONS; CHRISTOPHER GUTTMAN-MCCABE, VICE PRESIDENT, REGULATORY AFFAIRS, 
CELLULAR TELECOMMUNICATIONS & INTERNET ASSOCIATION; VINCENT D. KELLY, 
PRESIDENT AND CHIEF EXECUTIVE OFFICER, USA MOBILITY, INC.; BILLY 
PITTS, PRESIDENT, GOVERNMENT AFFAIRS, NTI GROUP, INC.; SHERIFF MICHAEL 
JACKSON, VICE PRESIDENT, MARYLAND SHERIFFS' ASSOCIATION; AND SARA ALLEN, 
SENIOR RADIO ENGINEER, CIARA ENTERPRISES, INC., ON BEHALF OF PROMETHEUS 
RADIO PROJECT

        MR. KNAPP.  Thank you.  Good morning, Chairman Upton, 
distinguished members of the committee.  I am Julius Knapp, the 
Acting Chief of the FCC's Office of Engineering and Technology.  
I welcome this opportunity to appear before you to discuss the 
Emergency Alert System or EAS.  Since the Cold War era, the 
United States has had a mechanism in place for the President to 
communicate with the public in the event of a national emergency.  
Under the current emergency alert system, all analog broadcast, 
radio, television and cable systems are required to deliver a 
presidential level activation of EAS but their use of EAS in 
response to State and local emergencies, while encouraged, is 
voluntary.
	Effective December 31 of this year, digital television 
broadcasters, digital cable systems, digital audio broadcasters, and 
satellite digital audio radio service providers will be required to 
deliver presidential EAS messages; and effective May 31, 2007, 
direct broadcast satellite providers will be required to do so.  In 
light of today's Homeland Security threats and potential for natural 
disasters, the FCC remains acutely aware of the importance of 
timely and effective warnings.
	In addition, there are exciting changes in our communications 
media that may allow for additional improvements in our warning 
systems.  As a result of these changes, EAS has recently been the 
subject of much examination.  To ensure that we do our part to 
contribute to an efficient and technologically current public alert 
and warning system, the Commission is conducting a rulemaking 
proceeding to consider whether the current EAS is the most 
effective way to warn the American public of an emergency, and, 
if not, how this system can be improved.
	In an August 2004, Notice of Proposed Rulemaking, the FCC 
raised broad questions about whether the technical capabilities of 
the EAS are consistent with the Commission's mission to ensure 
that public warning systems take full advantage of current and 
emerging technologies, particularly digital broadcast and wireless 
telecommunications medium.  The Commission also raised the 
issue of whether the voluntary nature of the EAS at the State and 
local level has led to inconsistent treatment of emergency alerts 
across the Nation, and, if so, whether that is appropriate in today's 
world.
	We also considered issues such as what the respective roles of 
the Federal government department and agencies involved in the 
implementation of that EAS should be, how the delivery pipeline 
for public warning can be made more secure, how it can be tested, 
how both emergency managers and the public can use and respond 
to a public warning system in the most effective manner, and how 
a public warning system can most effectively provide emergency 
warnings to the disabled community and those to whom English is 
a second language.
	Indeed, a key focus of our inquiry was and continues to be how 
to reach each and every citizen.  In November 2005, the FCC 
adopted its first report and order and Further Notice of Proposed 
Rulemaking.  In the first report and order, the Commission 
expanded the reach of the EAS to insure that more Americans are 
able to receive public alert and warnings by requiring the 
participation of digital communication systems including digital 
television and radio, digital cable, and satellite television and radio.  
In the Further Notice of Proposed Rulemaking, the Commission 
sought further comment on ways that it could expedite the 
development of a comprehensive, efficient, and redundant state of 
the art public alert and warning system.
	We have coordinated closely with the Department of 
Homeland Security and its component, the Federal Emergency 
Management Agency, or FEMA, and with the National 
Oceanographic and Atmospheric Administration, NOAA, and its 
component, the National Weather Service.  The Commission 
values these agencies' continued participation in our review of 
EAS.  We look forward to working with Congress, our colleagues 
and other Federal, State, and tribal agencies and the public to 
ensure that we can provide the best possible warning system to our 
citizens.  Thank you, Mr. Chairman, for the opportunity to appear 
before you today.  This concludes my testimony and I would be 
pleased to answer questions.  Thank you.
	[The prepared statement of Julius Knapp follows:]



PREPARED STATEMENT OF JULIUS KNAPP, ACTING CHIEF, OFFICE 
OF ENGINEERING AND TECHNOLOGY, FEDERAL COMMUNICATIONS 
COMMISSION

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


	MR. UPTON.  Thank you.  Mr. Lawson, welcome back.
MR. LAWSON.  Thank you, Mr. Chairman, members of the 
subcommittee.  Mr. Chairman, I would like to say that my wife's 
mother and sister are from Michigan.
	MR. UPTON.  I knew it.  Make sure you repeat that when Mr. 
Bass returns.
	MR. LAWSON.  On behalf of the Association of Public 
Television Stations, I do welcome this opportunity to participate in 
the hearing.  We have been heavily involved in the development of 
a 21st Century alert and warning system for the American public 
and were keenly interested in the subject at hand, so let me begin 
by saying that APTS strongly endorses the WARN Act, and we 
commend Mr. Shimkus and Mr. Wynn for their leadership in 
introducing the bill as well as the members of the committee for 
co-sponsoring it.  And we applaud you, Mr. Chairman, for 
scheduling this hearing so quickly after the introduction of the bill.
	As you know, public television has embraced digital 
technology.  It is enabling us to roll out a new generation of 
services for the American public.  In addition to high definition 
and multi-casting, we have pioneered a third application made 
possible by DTV, and that is datacasting.  Through our broadcast 
signal along with our programming, we can send text, graphics, 
streaming media in the Internet protocol format throughout a wide 
geographic region wirelessly.  For some time we have been 
discussing our emergency alert capabilities even before 9/11 with 
officials in the Executive Branch and Congress, and I am happy to 
say that members of this subcommittee and others are listening as 
evidenced by this hearing.
	In fact, last week the White House, the Department of 
Homeland Security, and my association, APTS, jointly announced 
that the Department has committed to funding the build out of a 
national digital Emergency Alert System or DEAS.  Public 
television will serve as a backbone of a network of networks.  This 
commitment was based on the completion of a successful two-
phase pilot project that proved that alerts transmitted and a 
station's digital signal could be received and re-transmitted on a 
wide range of media and communications platforms.  In other 
words, it proved interoperability and it supports the President's 
executive order in this way.
	The current EAS as you and others have noted has its roots in 
the Cold War.  What we announced last week is an alert system for 
the mobile network and digital America of today.  Like the current 
EAS, the digital EAS is designed for the President or his successor 
to communicate with the American public at a time of national 
crisis.  The WARN Act is the logical next step to DEAS, and that 
is because it builds upon the new presidential system to provide 
local, State, and regional alert and warning capabilities as well.
	And like DEAS, the WARN Act recognizes a huge cost-
effective dual use opportunity for the Federal government.  Public 
stations have raised over $1.1 billion for the conversion to digital 
with about one-third of that coming from Federal sources.  As a 
result of this investment, public stations have the digital 
infrastructure in place today to serve as a dual-use backbone for 
the national alert system authorized under WARN.  Please allow 
me to provide an overview of our capabilities.
	We have 356 public television station transmitters in this 
country and many translators are 100 percent interconnected via 
the PBS satellite network.  These are locally owned, non-profit 
institutions.  Public television reaches 99 percent of the U.S. 
population, about 95 percent now with our digital signal.  Mr. 
Chairman, our system was built for universal service and we 
deliver it.  And DTV datacasting has many advantages to this 
system.  DTV is really a very powerful wireless data distribution 
platform.  It provides total scalability.  It is designed for mass 
distribution.  We can reach a million receivers as easily as one 
without any of the congestion we saw with cell line and phone 
lines during 9/11.
	It is a receivable and inexpensive receiver device.  We are 
talking about $40 under the television receiver subsidy program.  It 
can be addressed to selected receivers and encrypted on a need to 
know basis.  Just a brief look at the dynamics of the bandwidth 
allocation.  This is a representation of an American digital 
television signal and you can see that high definition does not take 
the whole bandwidth.  You can dedicate some of the bandwidth for 
data transmission.  You can find other data opportunistically.  
Typically we are using only less than a megabyte per second in our 
emergency alert projects.
	So let me transcribe the architecture of our pilot project, which 
will be the basis for the actual deployment and the demonstration 
we want to conduct for you in just a moment.  One of the--at the 
upper left is the Department of Homeland Security.  In the pilot, 
they have originated test messages which are sent on a dedicated 
line to the PBS satellite operations center in Springfield, Virginia.  
The satellite without anyone touching it, no one at the station or 
PBS touches these messages, they are simply passed through 
digitally.  Stations receive the signal off the satellite.  In this case, 
WETA received it and retransmitted it simultaneously.  These 
alerts were picked up by a variety of media including cell carriers, 
paging companies, satellite radio, and other broadcasters and we 
sent it to stations around the country.
	One of the hallmarks of the pilot project was the large number 
of partners we had in the public and private sectors, Federal 
agencies here, all sorts of private media and communications 
carriers.  Because of the success of phase one, DHS funded us to 
expand the project and conduct phase two, which came to 24 
public stations participating in this project.  Mr. Chairman, we 
commend the WARN Act for its goal of creating a truly integrated 
national alert system.  This commitment of $106 million will go a 
long way toward providing the kind of system that the American 
people need and deserve.
	We do have some questions about the funding mechanism 
through WARN.  We are concerned that our stations would incur 
the cost of installing the equipment and then have to be 
reimbursed.  We hope to discuss that with you and members of the 
subcommittee.  But we are deeply gratified to see this legislation 
moving forward.  Digital public television stands ready to provide 
the backbone of a network of networks that can deliver instant 
warnings to people wherever they are or whatever they are doing.
	And now, Mr. Chairman, with your permission we will be 
happy to conduct a live demonstration of the digital Emergency 
Alert System.
	MR. UPTON.  Fire away.
	MR. LAWSON.  Please let me go back to the schematic and 
describe what you will see and hear rather then me talking over the 
test.  FEMA will originate a live test message and send it to the 
PBS facility in Springfield.  It will be up linked with video 
satellites.  We can also provide live streaming media and audio.
	MR. UPTON.  I will just note that it just came over my 
Blackberry just now.
	MR. LAWSON.  And we can ring cell phones and Blackberries.  
So radio and newscasts receive the audio portions of this alert live 
off of WETA and are retransmitting it so that is what you are 
hearing with a slight delay coming off their satellite.  You can also 
see, we are seeing this through a computer browser through this 
server, which is connected to a small indoor antenna in the window 
and the DTV tuner part is built into this device inexpensively.  
Along with the alert and the audio and video, we are sending files 
that are building here that we can delete and reload.  This is just 
hypothetical information.  It could be sent by the authorities to 
police departments or the sheriff's departments or hospitals in 
addition to the alert that the public is receiving, so this is a highly 
flexible and robust system.
	In this test today, we did set off cell phones for those of you 
who gave us your numbers.  We used the Internet for this through 
software developed by Specter Rep called Alert Manager, but in 
the pilot project here in the National Capital region the cellular 
providers actually took the signal off air from WETA and 
retransmitted the text messages from that.  So we can repeat this 
test if you would like at some point, a lot was happening, but we 
are doing this with commercial off the shelf technology.  There is 
nothing really exotic about this, but even though we can encrypt 
some of the data on a need to know basis.  So this concludes my 
oral testimony.  I am happy to answer any questions you may have.
	[The prepared statement of John Lawson follows:]

PREPARED STATEMENT OF JOHN LAWSON, PRESIDENT AND CHIEF 
EXECUTIVE OFFICER, ASSOCIATION OF PUBLIC TELEVISION 
STATIONS

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


	MR. UPTON.  Thank you.  Mr. Guttman-McCabe.
        MR. GUTTMAN-MCCABE.  Thank you, Mr. Chairman.  Good 
morning, Chairman Upton, and distinguished members of the 
subcommittee.  I am Christopher Guttman-McCabe, Vice President 
for Regulatory Affairs at CTIA, the Wireless Association.  I am 
privileged to appear before you today to endorse the WARN Act, 
to highlight the wireless industry's efforts regarding creation of an 
all hazards network and to discuss what role government can play 
in that effort.  I want to thank Chairman Upton, the subcommittee, 
Representative Shimkus, Representative Wynn, and the other 
sponsors of the bill for their strong leadership and for focusing 
attention on the important and timely issue of emergency warnings 
and alerts.
	The wireless industry recognizes the importance of this effort.  
CTIA and the industry have coordinated our efforts with the 
Department of Homeland Security, FEMA, and the FCC.  The 
industry also launched a voluntary wireless Amber Alert service 
that not only will help protect our Nation's children, but also will 
provide a useful template as the industry moves forward with an 
Emergency Alert Service.  The industry, like many other high-tech 
industries, is in a process of continual change and renewal.  The 
wireless industry has invested billions of dollars in their networks.  
Additionally, consumers have also invested billions in handsets, 
PDAs, and data cards.
	Going forward, new technologies and services are likely to 
extend both the reach and the capacity of wireless services.  A 
sensible emergency alert and policy must take into account both 
the massive investment in place today, an investment that will 
define the capabilities that can be used in the short run, and the 
technological developments that propel the industry in the long 
run.  We believe the WARN Act is designed to do just that, 
collaboratively considering government's needs as well as 
industry's existing capabilities and planned investments and 
evolution.
	CTIA, working with the industry, has initiated a two-part 
approach toward development of an emergency alert solution.  
CTIA and the industry are working within existing capabilities to 
establish and initiate a voluntary effort to deliver presidential level 
emergency alert messages that would be sent via short message 
service to those subscribers that opt in to a participating carrier.  
This is based on the industry's current point to point configuration, 
which differs from broadcasters' point to multi-point platforms.
	As discussed today, CTIA and the industry partnered with 
FEMA and APTS on a pilot project that utilized public television's 
digital spectrum to deliver alerts to wireless phones utilizing SMS.  
While there are both limitations on the number of SMS messages 
that can be sent during any one period of time, as well as 
limitations on the number of characters that can be contained in 
any single message, there is one significant benefit to the short-
term use of SMS: SMS exists today.
	However, this initial service must be approached with caution 
as the limitations and concerns regarding both capacity and 
message content are likely to arise during an emergency.  Second, 
as part of a longer term effort going forward, CTIA and the 
industry are investigating mechanisms for geographic delivery of 
messages.  This second stage effort is designed to take advantage 
of the constant evolution that is a hallmark of our industry.  
Several of the capabilities being investigated for a geographic-
based service would require the industry to address issues 
including standardization, product development and deployment, 
and likely handset turnover if the service is not available in 
existing handsets.  The WARN Act provides a very sensible 
process that will help to integrate capabilities and evolution of the 
industry into the Emergency Alert Service.
	The Act establishes an expert working group of government 
officials and industry experts that will work toward a service 
description and develop standards.  This group logically will take 
into consideration industry capabilities and evolution.  CTIA and 
the industry believe that any emergency alert service should utilize 
the full range of communications devices, such as wireline and 
wireless phones, e-mail and instant messaging systems, radios and 
television sets, each of which delivers a capability unique to that 
service, mobility for wireless and satellite devices, video for 
broadcasters, voice for radio broadcasters, and more.
	The efforts discussed above are only a part of the work being 
done in this area.  More work needs to be completed and ultimately 
government can help.  A true government-industry partnership as 
envisioned in the WARN Act, as envisioned in the President's 
recent executive order, and as occurred during the development of 
the Wireless Priority Service, will benefit the emergency alert 
service.  The WARN Act mirrors the Wireless Priority Service 
model and that is why I am encouraged about its adoption.  It 
provides a process for collaboration, allowing the service to be 
defined before requirements are set, as well as funding for 
development and deployment.
	Additionally, it would be important to consider liability 
protection as part of the Act.  Ultimately, the WARN Act will 
provide a framework that will facilitate development and 
deployment of a nationwide Emergency Alert Service.  CTIA and 
the industry look forward to continuing the partnership with 
government toward development of a robust Emergency Alert 
Service.  Thank you again, Mr. Chairman, and the committee for 
this opportunity to voice our support for the WARN Act.  We look 
forward to working with you and your staff toward a service that 
will benefit the American people, and I welcome your questions.
	[The prepared statement of Christopher Guttman-McCabe 
follows:]

PREPARED STATEMENT OF CHRISTOPHER GUTTMAN-MCCABE, VICE 
PRESIDENT, REGULATORY AFFAIRS, CELLULAR 
TELECOMMUNICATIONS & INTERNET ASSOCIATION

        The wireless industry, like many other high-tech industries, is 
in a process of continual change and renewal.  New technologies 
and services are likely to extend both the reach and capacity of 
wireless communications.  A sensible emergency alerting policy 
must take into account both the massive investment in place today 
-- investment that defines the capabilities in the short run -- and the 
technological developments that propel the industry in the long 
run.  The Warning, Alert, and Response Network Act ("WARN 
Act") reflects this careful, balanced approach and complements the 
wireless industry's concerted efforts to develop and deploy an 
effective Emergency Alert service. 
        CTIA, working with the industry, has initiated a two-part 
approach toward development of an Emergency Alert capability.  
In the short-term, the wireless industry proposes to deliver a 
SMS-based, or text messaging, solution.  Along these lines, the 
industry is participating in a FEMA pilot project utilizing existing 
SMS capabilities.  While limitations exist on the number and size 
of SMS messages, a significant benefit to the short-term use of 
SMS is that it is available today.  However, this initial SMS-based 
service should be implemented with a clear understanding of its 
limitations. 
        Second, as part of the longer-term effort, CTIA and the 
industry are investigating mechanisms for geographic delivery of 
messages.  The capability to deliver messages geographically 
currently does not exist in wireless networks in the United States.  
The industry is looking into what role capabilities such as cell 
broadcast, the existing NOAA service, or even geographic SMS 
could play in Emergency Alerts. 
        These longer-term solutions likely would require the industry 
to address issues including standardization, product development 
and deployment, as well as the need for handset turnover.  CTIA 
continues to work with FEMA on the creation of a framework for 
development of an Emergency Alert service that utilizes the full 
range of communications devices.  
        The WARN Act will advance the efforts that have occurred to 
date and speed delivery of an effective Emergency Alert capability.  
The WARN Act's national network for the transmission of alerts 
aims to take advantage of wireless, Internet and other advanced 
technologies, while remaining technology-neutral.  It enables 
appropriate federal, state or local government agencies to alert the 
public of disasters and threats, and reflects the same 
highly-successful process used to create the Wireless Priority 
Service, whereby government worked closely with the industry to 
establish a service description.  
        CTIA and the wireless industry also support the WARN Act's 
contemplation of a true government/industry partnership that 
investigates the following areas: 
<bullet> Liability protection.
<bullet> Creation of a joint government/industry partnership to 
develop the requirements of an emergency alert service, 
with the goal of establishing standards.
<bullet> Appointment of a specific authority responsible for 
balancing local, state and federal requirements against 
industry capabilities.  
<bullet> Designation of an entity tasked with operation of the 
Emergency Alert service and creation of a clear set of rules 
governing who may generate messages coupled with a 
process to authenticate and secure any Emergency Alert 
messages.  
<bullet> Funding for research, development, and deployment of a 
nationwide alert service.
        Good morning Chairman Upton, Ranking Member Markey, 
and distinguished members of the Subcommittee.  I am 
Christopher Guttman-McCabe, Vice President for Regulatory 
Affairs at CTIA, The Wireless Associationr.  CTIA is the 
international organization that represents all sectors of the wireless 
communications industry: wireless carriers, manufacturers, and 
data companies.  I am privileged to appear before you today to 
endorse the Warning, Alert, and Response Network Act ("WARN 
Act") (H.R. 5556), to highlight the wireless industry's efforts 
regarding creation of an all hazards network and to discuss what 
role Government can play in that effort.  I want to thank Chairman 
Upton, the House Subcommittee on Telecommunications and the 
Internet, Representative Shimkus, and the other sponsors of the 
Bill for their strong leadership and for focusing attention on the 
important and timely issue of emergency warnings and alerts.
        The wireless industry recognizes the importance of this effort.  
CTIA and the industry have dedicated resources to examine this 
issue and are working towards an emergency alert capability.  
CTIA and the industry have coordinated their efforts with the 
Department of Homeland Security and the Federal Emergency 
Management Agency ("FEMA"), as well as with the Federal 
Communications Commission ("FCC" or "Commission").  As 
discussed below, the industry also launched a voluntary Wireless 
AMBER Alert Service that not only will help to protect our 
Nation's children, but also will provide a useful template as the 
industry moves forward with an Emergency Alert service.  While 
the AMBER alert service differs from an Emergency Alert service 
in that the AMBER Alerts are not necessarily initiated during a 
time of severe network congestions (as is likely the case in the 
context of an Emergency Alert), the industry already has begun to 
learn from the provision of this service.

Background
        The industry, like many other high-tech industries, is in a 
process of continual change and renewal.  The wireless industry 
has invested billions of dollars in their networks.  Additionally, 
consumers also have invested billions in handsets, wireless PDAs, 
and data cards.  The industry runs on a mix of technologies varying 
from first generation analog to the latest third-generation designs.  
Manufacturers and service providers unveil new capabilities every 
few days.  New technologies and services are likely to extend both 
the reach and capacity of wireless services.  Unfortunately, we do 
not know today what all those new capabilities will be or when 
they will become available.  A sensible emergency alerting policy 
must take into account both the massive investment in place today 
-- an investment that defines the capabilities that can be used in the 
short run -- and the technological developments that propel the 
industry in the long run.  We believe the WARN Act is designed to 
do just that - - take into consideration the industry's existing and 
planned investments.  
        Developing a national emergency alerting policy should not be 
a one-time event.  Going forward, there should be a continuing 
process for identifying the emergency alert environment and 
merging it with industry capabilities.  Uses and expectations of the 
service will indicate what may be appropriate for capacity of 
message delivery in the short term and long term.  Further, the 
scope of who uses the system and for what purpose is very 
important to understand as it relates to the cost to develop, the 
management of the service, and effectiveness of the system.
        CTIA, working with the industry, has initiated a two-part 
approach toward development of an Emergency Alert capability.  
The goal is to balance the industry's existing capabilities with the 
perceived requirements of an Emergency Alert service, at the same 
time recognizing that the industry is evolving.  The continued 
evolution of the industry likely will result in different options 
being considered for delivery of Emergency Alert messages.  For 
example, currently there is nothing initiated in the network for 
delivering messages to a specific targeted geographic area.  
Handsets and/or networks would have to be upgraded or replaced 
in order to provide such a service, and development and 
deployment of any geographic service would take time.  
        Accordingly, CTIA and the industry are initially working 
within existing capabilities to establish and initiate a voluntary 
effort to deliver Presidential-level Emergency Alert messages via 
Short Message Service ("SMS"), or text message, to those 
subscribers that opt in to a participating carrier.  As discussed 
below, CTIA and the wireless industry have partnered with FEMA 
on a pilot project that initially will utilize the industry's existing 
SMS, or text message, capabilities.  The SMS capability exists in 
the majority of handsets, and is provided by the overwhelming 
majority of carriers.  
        While there are both limitations on the number of SMS 
messages that can be sent during any one period of time, as well as 
limitations on the number of characters that can be contained in 
any single message, there is one significant benefit to the short-
term use of SMS - it is available today.  Utilizing SMS initially 
will work to avoid a significant amount of the development 
timeframe that will accompany the solutions discussed below.  
However, this initial service must be approached with caution, as 
the limitations and concerns regarding both capacity and message 
content are likely to arise during an emergency.  
        Unlike the existing Emergency Alert network, which operates 
on broadcast networks designed to transmit messages from one 
point to multiple points, the existing wireless network was 
designed to be point to point - one customer to another customer, 
where the network has to route calls and text messages using 
switches and databases to direct traffic to individual users.  In this 
environment, utilization of SMS to retransmit messages likely will 
result in latency of delivery of the message to some consumers.  
However, as was concluded in the Wireless AMBER Alert context, 
an SMS offering - despite its expected limitations - is the best 
existing, short-term option for delivery of alert messages.  
        Second, as part of the longer term effort going forward, CTIA 
and the industry are investigating mechanisms for geographic 
delivery of messages.  This second stage effort is designed to take 
advantage of the constant evolution that is the hallmark of the 
wireless industry.  The goal is to address the capacity issues that 
are part of any SMS-based alert service, as well as to develop a 
capability for targeting messages geographically.  
The industry is looking into what role, if any, services such as 
cell broadcast and other broadcast technologies could ultimately 
play in the Emergency Alert environment.  Recent developments, 
including but not limited to broadcast offerings on wireless phones, 
as well as services such as Qualcomm's proposed MediaFlo 
offering, highlight how the industry and its technology are in 
transition.  
        Several of the capabilities being investigated for a geographic-
based service would require the industry to address issues 
including standardization (both of the underlying product as well 
as the alert development and delivery process), product 
development and deployment, as well as the need for handset 
turnover if the service is not available in existing handsets.  The 
WARN Act provides a very sensible process that will help 
facilitate that evolution.  The Act establishes an expert working 
group of government officials and industry experts that will work 
to set a service description and develop standards.  This group 
logically will take into consideration industry capabilities and 
evolution, and will lead to a more robust service.  
        In the interim, CTIA continues to work with FEMA and the 
Federal Communications Commission on the creation of a 
framework for development of an alert service that ultimately can 
be transmitted on multiple retransmission media, including 
wireless.  CTIA and the industry believe, that while wireless can 
be a component of any alerting service, any Emergency Alert 
service should not focus solely on the wireless network.  Rather, an 
Emergency Alert service should utilize the full range of 
communications devices, such as wireline and wireless telephones, 
email and instant messaging systems, radios and television sets, 
each of which delivers a capability unique to the service - - 
mobility for wireless and satellite devices, video for broadcasters, 
voice for radio broadcasters, etc..   

FEMA Capitol Region Pilot Project
        CTIA has been working diligently with carriers, manufacturers, 
and FEMA on a digital Emergency Alert pilot project in the 
national capitol region.  As discussed this morning, the pilot 
project, being directed by FEMA, coordinated with the Association 
of Public Television Stations ("APTS"), and utilizing the digital 
broadcast spectrum, is designed to provide the Nation with an 
enhanced alert system.  The goal of the first phase of the project 
was a "proof of concept" that Emergency Alert messages can be 
sent from FEMA to public broadcasters, embedded in the digital 
broadcast spectrum, and then re-transmitted to third parties, 
including wireless carriers.  A portion of the embedded Emergency 
Alert message contained a text file that the wireless carriers were 
able to extract.  Phase 1 of the pilot project has successfully been 
completed.  

AMBER Alerts
        The industry already is pursuing use of the wireless phone for 
the safety of the country.  On its own initiative, the industry has 
launched a Wireless AMBER Alert Service that will provide 
another level of safety to its customers and the American public.  
This service enhances the industry's vast array of socially 
responsible initiatives.  Partnering with the National Center for 
Missing & Exploited Children ("NCMEC") as well as the 
Department of Justice (the designated national AMBER Alert 
coordinator), the wireless industry is making potentially life-saving 
AMBER Alert text messages available to wireless subscribers who 
"opt in" to the offering.  The carriers currently participating 
collectively provide service to more than 90% of U.S. wireless 
customers.  The service has been designed to be scaleable so that 
additional carriers can continue to join the effort going forward.
        Wireless AMBER Alerts will significantly increase the reach 
of the AMBER Alert notification program.  The Ad Council 
recently has chosen the Wireless AMBER Alert program for its 
support.  Past experiences indicate the first three hours are critical 
to the successful recovery of an abducted child, and the Wireless 
AMBER Alerts will be an invaluable tool in assisting the search 
process.  According to the NCMEC, Wireless AMBER Alerts will 
potentially serve as a preventive tool as well.  People who prey on 
innocent children will perhaps think twice before carrying out their 
malicious acts, knowing that almost any cell phone owner they 
pass could identify a perpetrator and have access to the immediate 
means to guide law enforcement officials to their location.
Under the program, the subscribers of participating carriers may 
"opt-in" to receive Wireless AMBER Alerts, and may do so at 
www.wirelessAMBERalerts.org, or by visiting their wireless 
service provider's web site.  

Going Forward
        The efforts discussed above are only a part of the work being 
done in this area.  More work needs to be completed, and, 
ultimately, government can help.  A true government/industry 
partnership as envisioned in the WARN Act, will facilitate 
development and deployment of the service.  The wireless industry 
has in its immediate past an example of what can happen when 
government and industry partner voluntarily on the creation of a 
new service -- Wireless Priority Service.  Wireless Priority Service 
is a White House-directed National Security/Emergency 
Preparedness program, through the National Communications 
System, that utilizes the commercial wireless networks to deliver 
priority access to key government officials during times of crisis 
and high call volume.  Government, through both the National 
Communications System and the Federal Communications 
Commission, worked with industry on development of the 
requirements for the service, but did not mandate a solution.  
Instead, government has provided funding to manufacturers and 
vendors for development of the capability, resulting in rapid 
deployment of the service in two phases.  The WARN Act mirrors 
the Wireless Priority Service model - and that is why I am 
encouraged about its adoption.  WARN will provide a framework 
that will facilitate development and deployment a nationwide 
Emergency Alert Service.   
        CTIA and the wireless industry believe that it is counter-
productive to have a statutory mandate in this environment.  
Application of the Wireless Priority Service model of 
government/industry partnership will lead to a solution that takes 
advantage of the industry's creativity and ingenuity.  As 
government and industry move forward with both a short-term and 
possibly longer-term solution, the following are some of the issues 
that would benefit from joint government/industry consideration: 
	<bullet> Liability relief.  As with the Broadcasters that currently 
provide the Emergency Alert service, the industry requires 
full liability protection for delivery of any Emergency Alert 
message, both for any short-term solution and any longer-
term solution.
	<bullet> Service Description.  As considered in the WARN Act, a 
joint government/industry partnership to develop the 
requirements of any emergency alert service that ultimately 
would result in the development and adoption of standards.  
This partnership will allow manufacturers to build to 
specific requirements.  
	<bullet> Designation of Authority for Development of an 
Emergency Alert Service.    As in the WARN Act, 
designation of a specific authority responsible for balancing 
local, state and federal requirements against industry 
capabilities.  
	<bullet> Designation of Authority for Operation of an Emergency 
Alert Service.  Again, as considered in the WARN Act, 
designation of a specific authority tasked with operation of 
the Emergency Alert service as well as creation of a clear 
set of rules governing who is permitted to generate 
messages and under what circumstances they can be 
generated, coupled with a process to authenticate and 
secure any Emergency Alert messages.  Due to the 
possibility of a hoax transmission, this process must 
guarantee the integrity of the messages from the point of 
origination to delivery. 
	<bullet> Research, Development, Deployment and Implementation 
Support.  Finally, as considered in the WARN Act, the 
provision of funding to support research and development, 
as well as deployment and implementation, will benefit the 
establishment of a nationwide alert service.

Conclusion
        CTIA and the wireless industry look forward to continuing the 
partnership with government toward development of an 
Emergency Alert Service.  Thank you again for this opportunity to 
voice our support for the WARN ACT, to highlight the wireless 
industry's efforts to contribute to an all hazards network, and to 
discuss what role the Government should play in that effort.  We 
look forward to working with you and your staff toward a service 
that will benefit the American people.

	MR. UPTON.  Mr. Kelly.
        MR. KELLY.  Chairman Upton, and members of the 
subcommittee, good morning, and thank you for inviting me to 
testify on emergency communications and the WARN Act.  My 
name is Vincent Kelly, and I am the President and Chief Executive 
Officer of USA Mobility, the Nation's largest provider of paging 
services.  I have been with the company and its predecessor, 
Metrocall, for over 19 years.  USA Mobility strongly supports the 
WARN Act and applauds the subcommittee's efforts to promote 
public safety through the broader dissemination of critical and 
often life-saving emergency information.
	Paging services are ideally suited to this task.  Our network is 
robust, reliable, and redundant, and our services are affordable.  
For those reasons, paging is often the technology of choice for 
emergency responders, healthcare professionals, and others who 
need messaging capabilities that will remain operational during a 
crisis.  When voice networks were out of service or overloaded 
during times of national emergency, such as on September 11 or 
during Hurricane Katrina, our network performed extremely well 
and allowed first responders to get critical messages to each other.  
We are proud that the FCC's independent panel reviewing the 
impact of Hurricane Katrina recently issued a report praising the 
exemplary performance of paging services during the storm and 
recommending that emergency responders throughout the Nation 
rely on paging services on a primary basis or as a backup to mobile 
phones and other broadband devices.
	Just as importantly, our paging network is equipped to 
broadcast thousands or even millions of alert messages 
simultaneously to the public, a capability not matched currently by 
mobile phone providers.  My written testimony describes in detail 
how our network operates and why it offers superior reliability for 
emergency communications, but let me take a moment to highlight 
some of the key attributes.
	First, our network is extremely reliable because we do not use 
the public switched telephone network to back all our traffic from 
our transmitters to our switches.  Instead we rely on satellites 
which means hurricanes and other calamities that damage trunk 
lines and telephone switches do not interrupt our service.  Second, 
we simulcast signals to our subscribers from multiple towers, and 
our transmitters are generally located higher off the ground and 
emit higher powered signals than mobile voice providers.  For 
those reasons, our signals can travel further and penetrate buildings 
better than mobile voice services.  And if one tower goes down our 
simulcast technology often allows users to receive messages from 
another tower in the area.
	Third, paging devices themselves are reliable and very easy to 
use.  Unlike cell phones and PDAs, a pager typically runs for 
weeks on a single AA or AAA battery.  Battery-powered pagers 
are not affected by a loss of electrical power because there is no 
need to recharge them.  These attributes make paging devices ideal 
for messaging among first responders and also make our network 
perfect for use in our national alert system.  Our company is 
committed to transmitting alerts to our subscribers in an 
emergency.  In addition, because mobile voice networks currently 
are not set up to broadcast alerts and our network is, our broadcast 
capabilities must best be utilized in emergencies if mobile 
telephone carriers were to integrate our paging technology into 
mobile phones.
	This approach could offer the fastest and most promising way 
to roll out a national alert capability to mobile voice subscribers or 
either to work with the voice carriers and manufacturers to make 
this concept a reality in the near future.  In closing, I would like to 
underscore our support for the proposed legislation and highlight 
three issues that are particularly important.  First, we strongly 
support the working group approach taken by the bill.  The best 
way to establish systems and protocols capable of delivering 
messages to a wide array of technology platforms is to convene a 
working group as proposed in the WARN Act.  USA Mobility is 
prepared to play a significant role in the working group.
	Second, the legislation is necessary to provide funding for this 
initiative.  The national rollout of an expanded multi-platform alert 
system will require funding in addition to that proposed by the 
WARN Act.  USA Mobility urges Congress to provide additional 
funding to the Department of Homeland Security to authorize 
grants to State and local emergency responders for the acquisition, 
use, and improvement of reliable communication systems 
including paging services.
	Finally, USA Mobility believes that any legislation must 
provide liability protection for communication service providers 
who participate in the national alert system.  The threat of baseless 
lawsuits would have a chilling effect on participation by service 
providers, which would limit the success of the initiative.  In 
conclusion, USA Mobility commends the subcommittee and 
Representatives Shimkus and Wynn and other sponsors of the 
WARN Act for their attention to this critical issue and looks 
forward to assisting in the development of a robust national alert 
system.
	[The prepared statement of Vincent D. Kelly follows:]

PREPARED STATEMENT OF VINCENT D. KELLY, PRESIDENT AND 
CHIEF EXECUTIVE OFFICER, USA MOBILITY, INC.

Summary of Written Statement of Vincent D. Kelly
	As the nation's leading provider of paging services, USA 
Mobility is eager to play an integral role in the national alert 
system contemplated by the WARN Act.  USA Mobility's paging 
services already provide a highly reliable, redundant, and 
affordable text-messaging solution to mission-critical emergency 
responders.  We also have the capability today to broadcast 
emergency alerts to all of our text-messaging subscribers, using 
satellite-controlled transmitters.  Moreover, our nationwide 
network can support alerting capabilities for other service 
providers, such as wireless voice carriers that cannot provide 
similar point-to-multipoint messaging. 
	USA Mobility's paging network has several key attributes that 
are ideally suited to emergency communications.  Our network 
relies on satellites rather than the PSTN to link transmitters and 
switches, and therefore can maintain operations when telephone 
trunk lines and switches are out of service.  In addition, our paging 
transmitters emit extremely powerful signals in a "simulcast" 
fashion, maximizing the network's geographic reach and in-
building penetration.  Paging devices typically run on a single AA 
or AAA battery and have a long battery life; unlike cell phones and 
PDAs, these devices are not affected by a loss of electrical power 
because there is no need to recharge them.  While damage to a 
transmission tower usually will disrupt mobile telephone service, 
paging's use of simulcasting enables the delivery of messages to 
paging devices from other nearby towers.  Paging also is a very 
affordable technology, which makes it suitable either as a primary 
communications tool or as a backup.
	These strengths were clearly demonstrated during recent crises, 
including Hurricane Katrina and September 11.  For example, the 
FCC's Independent Panel on the Impact of Hurricane Katrina on 
Communications Networks praised the exemplary performance of 
paging services during the storm and even called on federal 
officials to promote the use of pagers by emergency responders 
nationwide.  During 9/11, the paging network remained operational 
when wireline and mobile voice networks became overloaded and 
could not complete calls. 
	USA Mobility seeks to leverage these strengths as a participant 
in the expanded national alert system.  Our network will continue 
to serve as a critical tool for first responders, and we are ready, 
willing, and able to provide emergency alerts to all of our text-
messaging subscribers.  In addition, our network's broadcast 
capabilities might be best utilized in emergencies if the national 
mobile telephone carriers were to integrate our paging technology 
into their handsets.  This approach seems to offer the fastest and 
most promising way to roll out a national alert capability to mobile 
phone subscribers, because mobile voice networks are not set up to 
broadcast alerts.
	USA Mobility applauds the Subcommittee for its work on the 
national alert system, and in particular we endorse the working 
group approach taken by the WARN Act.  Industry stakeholders 
and officials at all levels of government should collaborate on the 
development of technical interfaces, security procedures, and 
related matters.  We also believe that the legislation's funding 
provisions are necessary to the deployment of a robust multi-
platform system, and Congress should expand its funding of grants 
to emergency responders.  Finally, any legislation should include 
liability protection for participating service providers.


	Chairman Upton and members of the Subcommittee, thank you 
for inviting me to testify on emergency communications and the 
Warning, Alert, and Response Network Act ("WARN Act").  My 
name is Vincent Kelly, and I am the President and Chief Executive 
Officer of USA Mobility, the nation's largest provider of paging 
services.
	USA Mobility strongly supports the WARN Act and applauds 
the Subcommittee's efforts to promote public safety through the 
broader dissemination of critical, and often life-saving, emergency 
information.  Paging services are ideally suited to this task.   
Perhaps the most important feature of our network today is the 
ability to broadcast messages to millions of Americans 
simultaneously utilizing a "group call" feature with our simulcast 
technology on a geographic zone-by-zone basis.  While my 
company serves several million customers and is capable of 
transmitting alerts to our messaging subscribers in an emergency, 
our network's broadcast capabilities might be best utilized in 
emergencies if other service providers-such as the national 
mobile telephone carriers-were to integrate our paging 
technology into mobile phones and similar devices, allowing 
information to be transmitted across multiple platforms 
simultaneously.  
	Our paging network also is extremely reliable, inherently 
redundant through simulcast technology, and very affordable.  For 
these reasons, paging has proven particularly vital to mission-
critical personnel such as first responders, doctors and nurses, and 
government officials.  In fact, the FCC's Independent Panel 
Reviewing the Impact of Hurricane Katrina on Communications 
Networks recently recognized the exemplary performance of 
paging networks during Hurricane Katrina and recommended that 
paging carriers play an important role in any expanded alert 
system.  
	My testimony today will describe the unique strengths of 
paging technology, its proven record in emergency situations, and 
the role we are prepared to play in an expanded national alert 
system.  Before addressing these issues, I will begin with some 
brief background information on USA Mobility. 

Company Background
	USA Mobility was formed in late 2004 by the merger of Arch 
Wireless, Inc. and Metrocall Holdings, Inc., then the nation's two 
largest independent paging and wireless messaging companies.  I 
have been with the company and with its predecessor Metrocall for 
19 years, and I understand well the communications issues that 
arise during times of emergency.  
	USA Mobility provides one-way and advanced two-way text-
messaging services, as well as traditional numeric paging services.  
As of March 31, 2006, USA Mobility provided service to over 4.6 
million messaging devices, out of a total of more than 8 million 
units industry-wide.  While the mass market for paging services 
has declined in recent years as consumers have increasingly relied 
on mobile phones, our paging services continue to play a critical 
role for first responders, including police officers, fire fighters, and 
rescue workers.  In addition, hospitals and health clinics, as well as 
government agencies, rely heavily on paging services.  We also 
serve more than 80 percent of Fortune 1000 companies.  Our 
paging networks, which include approximately 15,000 
transmitters, reach more than 90 percent of the U.S. population 
with one-way service and over 80 percent with two-way service, 
encompassing the largest 100 markets.

Key Attributes of Paging Networks
	USA Mobility's paging network is ideally suited to emergency 
communications based on several key attributes, including 
reliability, redundancy, and affordability.  These attributes will 
strongly further the WARN Act's goals by ensuring the availability 
of a text-messaging capability as a primary or back-up system for 
public alerts and facilitating communications among first 
responders in emergency situations.
	Paging is one of the most reliable communications 
technologies on the market today.  Our network architecture 
combines digital satellite transmission with an extensive system of 
terrestrial transmitters and paging switches.  Because our 
narrowband PCS transmitters are controlled by satellites, our 
transmission network is far less dependent on the public switched 
telephone network than many other wireless systems-and thus far 
less vulnerable to outages during natural disasters and other 
emergencies.  Satellite transmission also enables us to direct 
messages to multiple base-station paging transmitters within a 
geographic footprint in a "simulcast" fashion.  Moreover, paging 
networks enjoy redundancy due to the benefits of this simulcast 
technology.  Because paging messages are simulcast from multiple 
towers to each pager, damage to a single tower or even several 
towers does not necessarily interrupt the delivery of messages, as 
the pager might be able to receive signals from other towers in the 
area.  Mobile voice networks typically lack this capability.
	Another distinctive feature of paging networks is that our 
transmitter antennas are located on towers high off the ground 
(over 300 feet) and on the tops of buildings, and emit extremely 
powerful signals of up to 3,500 watts ERP.  In contrast, most 
mobile phone transmitter antenna arrays typically are located 100 
feet above the ground and emit significantly less powerful 
transmitter signals of 90 watts ERP.  As a result of our unique 
simulcasting and high-power transmissions, paging signals can 
travel farther and penetrate buildings better than signals used by 
other wireless technologies.  Additionally, many mobile phone 
outages result from damage to their large antenna arrays, in 
contrast to the resilience of the smaller antennas utilized by paging 
systems.  Paging devices are also very reliable.  Unlike cell phones and 
PDAs, pagers typically run on a single AA or AAA battery and 
have a long battery life relative to other wireless devices. These 
battery-powered pagers are not affected by a loss of electrical 
power because there is no need to recharge them.  
	Moreover, paging devices and service plans are affordable, 
particularly relative to other wireless services.  A typical paging 
service plan includes the cost of the paging device and still costs 
less than $10 per month.  This low cost continues to make pagers 
an attractive option for private employers and government agencies 
that need basic messaging capabilities, either for primary use or to 
back up their broadband services.  The cost savings also benefit 
low-income consumers who cannot afford more expensive wireless 
communications services.

Performance During Hurricane Katrina and 9/11
        The strengths of our technology were clearly apparent during 
Hurricane Katrina and 9/11.  Hurricane Katrina disabled most 
communications networks in the Gulf Coast region, but paging 
services remained operational in many areas while other networks 
failed.  USA Mobility's network was fully operational within two 
days in the areas hardest hit by the storm (most wireline and 
wireless providers required far longer to restore full service).  
Several of our customers reported that paging services provided 
their only link to the outside world, as they could not use wireline 
or wireless telephones.  For example, as an employee at Women's 
Hospital and Tulane Lakeside Hospital reported:
        Pagers were used by Medical Staff for communicating with the 
doctors and nurses in transporting the Mom's and Babies from 
one facility to another.  Text messaging was the only way to 
get critical messages out to the doctors and nurses since phone 
lines were all down or all circuits busy. 

Similarly, Carter C. Blumeyer, a Communication Specialist with 
FEMA during Hurricane Katrina, reported his experience with 
paging and the Reflex technology protocol we deploy on our two-
way network to an industry newsletter:
        I am with an Urban Search and Rescue for FEMA and with the 
cell and data service down and systems being flooded. . . .  
ReFLEX is working fine and communications are flowing 
through the units!  We are allowing people to send e-mails to 
loved ones to let them know they are alive and well.  Again the 
critical use of ReFLEX [has been available] in all the disaster 
situations I have been to (9/11 NYC, Ivan, Isabel and now 
Katrina!).

The recent report of the FCC's Independent Panel Reviewing the 
Impact of Hurricane Katrina on Communications Networks 
validated this anecdotal evidence and commended the exemplary 
performance of paging services during the crisis.  The Panel 
concluded that paging systems were more reliable than other 
networks because:
	<bullet> "[P]aging systems utilize satellite networks, rather than 
terrestrial systems, for backbone infrastructure.  Paging 
technology is also inherently redundant, which means that 
messages may still be relayed if a single transmitter or 
group of transmitters in a network fails."  (Report at 10.)
	<bullet> "Paging signals penetrate buildings very well, thus 
providing an added level of reliability."  (Id.)
	<bullet> "Additionally, pagers benefited from having a long battery 
life and thus remained operating longer during the power 
outages.  Other positive observations concerning paging 
systems included that they were effective at text messaging 
and were equipped to provide broadcast messaging."  (Id.)
	<bullet> "[G]roup pages can be sent out during times of emergencies 
to thousands of pager units all at the same time."  (Id.)

Because of the remarkable reliability of the paging network during 
Hurricane Katrina, the Panel repeatedly recommended that 
emergency responders rely on pagers as a primary or back-up 
communications system in future emergencies.  The Panel stated, 
for example, that the FCC should "[u]rge public safety licensees to 
familiarize themselves with alternative communications 
technologies to provide communications when normal public 
safety networks are down.  Such technologies include . . . two-way 
paging devices, and other technologies less reliant on the PSTN."  
(Id. at 37-38)  The Panel also called on the FCC to support 
Department of Homeland Security efforts to make emergency 
medical providers eligible for funding for emergency 
communications equipment and to expand the Emergency Alert 
System, see id. at 40, as the WARN Act seeks to accomplish.
	Paging also performed exceptionally well during the tragic 
events of September 11, 2001.  While the wireline and related 
wireless networks were quickly inundated with high call volumes 
and thus inaccessible for most people, pagers continued to send 
and receive data throughout the duration of the emergency.  The 
superior performance of paging systems during 9/11 led industry 
expert Dr. Peter Kapsales to state that two-way paging "should be 
considered a primary or backup system to improve real-time 
communication among emergency personnel during critical 
periods when voice communication is not practical or fails."  

Paging Should Be a Central Component of the National Alert 
System
        As this past performance demonstrates, USA Mobility and 
other paging carriers can leverage the benefits of their networks as 
participants in the expanded national alert system.  There can be no 
legitimate debate about the value of enabling people to receive 
alerts over as many communication platforms as possible, as the 
WARN Act proposes.  Nor is there any doubt that wireless 
technologies in particular should play a key role in the national 
system.  Our society is going wireless.  Although it is important to 
reach the television and radio audiences with emergency 
information, a growing number of citizens rely on wireless 
networks to receive information (and, of course, to communicate 
with others).  As of 2005, there were more than 185 million mobile 
telephones, and more than 8 million paging devices, in service.  
Sending emergency information to wireless devices is especially 
important if people are on the move during an emergency, or if 
televisions and radios are inoperable based on power failures.
        While mobile phone providers at this point serve vastly more 
consumers than paging carriers, the superior point-to-multipoint 
capabilities of paging networks make paging carriers critical 
participants in the national alert system.  The FCC's rulemaking on 
expanding the Emergency Alert System has focused largely on 
mobile phone providers' current inability to broadcast alert 
messages to large numbers of consumers.  Mobile phone carriers 
have proposed short-term solutions based on short-message-
services, which are quite limited in terms of message length and 
the number of subscribers that can be reached promptly.  Over the 
next several years, mobile phone carriers propose to develop more 
robust broadcast systems capable of transmitting messages to large 
numbers of subscribers simultaneously.
        In contrast, as I have described, paging networks already have 
this capability today.  Broadcasting large numbers of messages 
does not cause bottlenecks in paging networks because, unlike 
voice networks, they are designed for this function.  We are able to 
put this capability to use in the national alert system, so that our 
text-messaging subscribers can receive alert messages from local, 
state, and national officials.  Our systems can be configured to 
transmit messages to targeted simulcast areas, to specific customer 
groups (such as emergency responders), or even to our entire base 
of text-messaging subscribers.
        While our services are extremely important to our 
subscribers-including first responders and health care 
professionals in particular-a greater public benefit might result if 
other service providers integrated our paging technology into their 
own devices to take advantage of our extraordinary alert 
capabilities.  For example, wireless voice providers could direct 
manufacturers to install paging technology in mobile phones.  This 
relatively low-cost solution would enable wireless carriers to 
transmit alert messages to a far broader audience as soon as new 
handsets are introduced into the marketplace.  In addition, paging 
networks can readily support the transmission of alert messages to 
wall-mounted devices in consumers' homes, which could emit a 
tone or light up when an emergency message has been received.  
Such devices could even be detachable and portable so they would 
deliver the benefits of mobile devices during a crisis.

Specific Recommendations
        USA Mobility believes that the WARN Act will strengthen 
emergency communications in a number of ways, and we 
commend the Subcommittee for convening a hearing.  I want to 
highlight three aspects of the legislation that are particularly 
important and beneficial.
        First, we strongly support the working group approach taken by 
the bill.  As I have explained, USA Mobility's paging network is 
capable of broadcasting alert messages to a mass audience or to 
targeted areas and user groups.  But the interface between our 
network and the officials responsible for issuing alerts has yet to be 
developed.  In our view, the most efficient and effective way to 
establish systems and protocols capable of delivering messages to 
a wide array of technological platforms is to convene a working 
group as proposed in the WARN Act.  The working group not only 
can develop appropriate transmission protocols but also can help 
establish appropriate authentication and validation systems to 
prevent misuse of the national alert system.  As the nation's 
leading paging carrier, USA Mobility is prepared to play a 
significant role in the working group contemplated by the 
legislation.
        Second, the legislation is necessary to provide funding for this 
initiative.  To its credit, FEMA has undertaken an important pilot 
program, the National Capital Region Digital Emergency Alert 
System Pilot (DEAS-NCR), in which USA Mobility participated 
along with public broadcasters and other entities.  But the national 
rollout of an expanded multi-platform alert system necessarily will 
require additional resources.  In addition to the funding proposed 
by the WARN Act, USA Mobility urges Congress to provide 
additional funding to the Department of Homeland Security to 
authorize grants to emergency responders at the state and local 
levels for the acquisition, implementation, and improvement of 
reliable communications systems, including paging services.
        Finally, USA Mobility believes that any legislation must 
provide liability protection for communications service providers 
who participate in the national alert system.  The threat of baseless 
lawsuits would have a chilling effect on participation by service 
providers, and broad participation is essential to the success of the 
initiative.
        In conclusion, USA Mobility commends the Subcommittee and 
the sponsors of the WARN Act for their attention to this critical 
issue and we look forward to assisting in the development of a 
robust national alert system.

	MR. UPTON.  Thank you.  Mr. Pitts.
	MR. PITTS.  Good morning, Mr. Chairman, members of the 
subcommittee.  My name is Billy Pitts, and I am President of 
Government Affairs for the NTI Group.  I am not from Michigan 
but I do appreciate old cars.  I appreciate also the opportunity to 
participate in this hearing on the WARN Act.  I want to commend 
Representative Shimkus and his fellow co-sponsors for 
recognizing the urgent need to reform the Nation's emergency 
communications capabilities.  The WARN Act envisions the use of 
advanced technologies that will help ensure that the public receives 
fast, reliable information during crisis situations.
	Earlier this year, I was privileged to serve as a member of the 
FCC's independent panel reviewing the impact of Hurricane 
Katrina on communication networks.  The Katrina panel found that 
for a variety of reasons the existing EAS system was not up to the 
task.  The panel recommended that a comprehensive national 
warning system be established, focusing, in particular, on the use 
of advanced technologies that can target alerts to particular areas 
and at risk populations.  I am pleased that the WARN Act shares 
these same goals.
	The reason I was appointed to the Katrina panel is that my 
company is a leader in the development of an advanced Time 
Sensitive Notification, TSN, technology that enables schools or 
community leaders to deliver critical information to targeted 
groups of citizens within a narrow timeframe.  This technology 
was dramatically demonstrated during last year's hurricanes.  The 
gentleman from Nebraska mentioned we are one of those boots on 
the ground companies.  We are doing over 12 million calls a month 
currently.  I expect to more than double that at the end of the year.  
We do the multi-lingual target alerts the gentleman alluded to.
	TSN technology combines advanced computing with the near 
ubiquity of phone service to allow officials to record a voice 
message and have it delivered to thousands of people in minutes 
via cell phones, landlines, and a variety of other devices.  TSN 
systems represent a quantum leap forward from earlier auto dialer 
systems that lack the speed, capacity, flexibility, and intelligence to 
reliably provide emergency information to the public.  An 
advanced TSN system is capable of delivering a 30-second 
message to over 400,000 recipients in less than an hour.  In 
contrast, a standard auto dialer would take over a day.
	The way that our system works is elegantly simple.  An 
authorized user with access to either a landline or cell phone 
interfaces with the password protected system via a toll free 
number and records an outgoing voice message.  The user then can 
program this message either via a secure Internet connection or 
over the phone to be sent immediately or at a specified time to 
either an entire universe of recipients or to selected subgroups.  
Such advanced systems offer a geographic mapping function that 
gives users the ability to send messages to all residences or 
businesses in a particular area.  Using this feature a community 
could, for example, notify all residents within five blocks of an 
evacuation order.  A school system could alert a group of parents 
waiting at a single bus stop that their children's transportation has 
been delayed or re-routed.
	One of the best things about this technology is that it does not 
require the installation of new equipment or have a steep learning 
curve.  Another benefit derives from built-in redundancies that 
provide government officials with increased assurance that their 
emergency messages will reach their intended recipients even in 
the face of power outages or flood.  Advanced TSN systems have 
interactive functionality.  They not only deliver messages but they 
allow recipients to communicate back to the sender.  For example, 
the sending party can inquire whether a recipient is in need of 
assistance and the recipient using the phone's touch-tone capability 
can send an appropriate response greatly facilitating relief efforts.
	The WARN Act is of crucial importance because it seeks to 
rectify the current limitations of emergency notification systems 
now in place.  As the provider of one such advanced system, we 
heartily endorse the WARN Act and look forward to working with 
members of the subcommittee as this important legislation moves 
forward.  I would like to tell the gentleman from Maryland that we 
have several Maryland schools as well as the D.C. public school 
system that we are working with, and we would enjoy working 
with you and your staff.  I would be pleased to answer any 
questions.
	[The prepared statement of Billy Pitts follows:]

PREPARED STATEMENT OF BILLY PITTS, PRESIDENT, GOVERNMENT 
AFFAIRS, THE NTI GROUP, INC.

        The co-sponsors of the WARN Act are to be commended for 
recognizing the urgent need for Congress to incorporate advanced 
technologies into the nation's emergency communications 
capabilities in order to ensure that the public receives fast, reliable 
information during crisis situations.
        The FCC's Katrina Panel found that "the use of 
communications networks to disseminate reliable emergency 
information to the public is critical - before, during and after such 
events."  The Panel also found that, for a variety of reasons, the 
current EAS system was not up to the task and recommended that a 
comprehensive warning system be established "to increase the 
penetration of warnings to the public," focusing on the use of 
advanced technologies that can target alerts to particular 
geographic areas and at-risk populations.
        Time-sensitive notification ("TSN") systems, such as those 
deployed by The NTI Group, Inc. ("NTI"), combine advanced 
computing with the near ubiquity of phone service to allow 
officials to record voice messages and have them delivered to 
targeted recipients in a matter of minutes.  TSN technology, which 
is available and in use today, fulfills many of the recommendations 
of the Katrina Panel and supports the specific goals that the 
WARN Act identifies as integral to a new National Alert System, 
as follows:
        TSN technology can be used to provide messages to an entire 
community or to very small subgroups (WARN Act goals: provide 
alerts to the "largest portion of the affected population feasible" 
and "permit narrowly targeted alerts");  
        TSN systems are designed with built-in redundancies to ensure 
functionality in the event of power failures and, as "hosted" 
services, do not require the installation of new equipment or 
require users to learn to use a new technology (WARN Act goals: 
"system redundancies," "widely dispersed access points," and no 
need for activation of "a particular device").  
        TSN technology allows the government to communicate with 
the public through a "credible spokesperson," such as a mayor, fire 
chief, or school superintendent, thereby ameliorating the confusion 
that is often created by the distribution of overbroad or inconsistent 
information by systems that depend on the mass media (WARN 
Act goal: "shall transmit addresses by Federal, state, tribal or local 
officials when necessary"). Another major benefit of TSN 
technology is that it has interactive capabilities that permit 
recipients to communicate back to the sender.
        While TSN technology is widely used for emergency and non-
emergency communications, particularly communications by and 
among educators, students and parents, its adaptability for use on a 
broader scale for public alerts has been firmly established.  The 
FCC has been urged to foster the deployment of TSN technology 
by designating TSN services as "eligible" for E-Rate support and 
by promoting pilot projects that would allow more immediate 
evaluation and use of advanced notification technologies such as 
TSN systems. We urge Congress to support these efforts.


Introduction
        Good morning, Mr. Chairman and members of the 
Subcommittee.  My name is Billy Pitts and I am President, 
Government Affairs for The NTI Group, Inc. ("NTI").   I 
appreciate the opportunity to participate in this hearing on the 
WARN Act and want to commend Representative Shimkus and his 
fellow co-sponsors for recognizing that there is a pressing need to 
incorporate advanced technologies into the nation's emergency 
communications capabilities so officials at the national, state, and 
local levels are able to provide members of the public with 
warnings and crisis-related information in the most efficient and 
effective manner possible.
        Earlier this year, I was privileged to serve as a member of the 
FCC's Independent Panel Reviewing the Impact of Hurricane 
Katrina on Communications Networks.  One of that panel's key 
findings was that "the use of communications networks to 
disseminate reliable emergency information to the public is critical 
- before, during, and after such events."  The Katrina panel also 
found that, for a variety of reasons, the existing EAS system was 
not up to the task with respect to Hurricane Katrina.  As a result, 
the panel made several recommendations aimed at improving the 
nation's emergency communications system, including the 
following:
	<bullet> Pursue the establishment of a comprehensive national 
warning system that complements existing systems and 
allows local officials to increase the penetration of 
warnings and to target alerts to particular areas.
	<bullet> Commence efforts to ensure that persons with disabilities 
and non-English speaking Americans receive meaningful 
emergency information.
	<bullet> Improve coordination of public information functions in 
order to facilitate the delivery to the public of consistent 
and reliable emergency information.

Time Sensitive Notification Technology
        The reason I was appointed to the Katrina Panel, and the 
contribution I believe I can make to the Committee's consideration 
of the WARN Act, arises from the fact that my company, NTI, is a 
leader in the development of an advanced "time sensitive 
notification" (or "TSN") technology that enables community 
leaders to deliver detailed emergency information to targeted 
groups of citizens, both small and large, within a narrow 
timeframe.  This TSN technology offers a proven method of 
augmenting existing modes of emergency communications that 
fulfills many of the Katrina Panel's recommendations and directly 
supports the functions of a National Alert System outlined in the 
WARN Act.
        Generally described, TSN technology combines advanced 
computing with the near ubiquity of phone service to allow 
officials to record a voice message and have it delivered to 
thousands of people in minutes via cell phones and landlines.   
TSN technology also is capable of delivering messages to personal 
communications devices, such as a Blackberry, PDA, or a standard 
e-mail account.  TSN systems can be used to convey vital 
information before, during or after crises - in instances involving, 
for example, an amber alert, storm warning, chemical spill, terror 
attack, or pandemic.  Best of all, TSN technology can be put to 
immediate use by governmental entities without the need for 
officials to install or learn how to operate any new equipment.
        To explain a bit more fully, TSN systems are advanced "one-
to-many" telephonic systems that represent a quantum leap 
forward from earlier auto-dialer systems.  In contrast to auto-
dialers, which lack the speed, capacity, flexibility and 
"intelligence" necessary to serve as a reliable provider of 
emergency information to the public, TSN systems utilize a hosted 
"Application Service Provider" model that makes them a far more 
robust and user-friendly tool for communicating information in 
urgent situations.  While a standard 48-port auto-dialer system 
takes over eight and a half hours to make a single attempt to send a 
30-second message to 50,000 people, an advanced TSN system is 
capable of delivering messages (including making repeat calls 
where necessary) to tens of thousands of recipients in just a matter 
of minutes.   
	To briefly summarize, TSN systems operate as follows: An 
authorized user with access to either a landline or cell phone 
interfaces with the password-protected system via a toll-free 
number and records an outgoing voice message.  The user can then 
program this message (either via a secure Internet connection or 
over the phone) to be sent immediately, or at a specified time, to 
either an entire universe of recipients or to selected subgroups.  
Some TSN systems even offer a geographic mapping function that 
gives users the ability to send messages to all telephones in a 
particular area.  Using this feature, a city could, for example, notify 
all persons on a particular block of an evacuation order or a school 
district could alert a group of parents waiting at a single bus stop 
that their children's transportation has been delayed or re-routed 
due to an accident or weather conditions.
	Unlike predecessor notification systems, TSN systems 
typically are designed with multiple redundancies.  For example, 
the TSN systems deployed by NTI not only have the ability to 
deliver messages through multiple mechanisms, they also have 
carrier redundancy, power redundancy, and database redundancy.
	Carrier redundancy is achieved by locating TSN systems on 
several local exchange carriers' ("LECs") and interexchange 
carriers' networks, allowing the TSN system user to place 
thousands of calls without the call traffic congestion that would 
occur if all of the calls passed through a single LEC's central 
office.  For instance, if a mayor chose to initiate calls from an auto-
dialer located within his or her city, both the outgoing calls and the 
incoming calls would cause the LEC to experience congestion.  By 
initiating calls from multiple sites located outside of the LEC's 
service area, a TSN service provider is able to eliminate one layer 
of congestion and reduce the risk of system failure.   Enhanced 
TSN systems avoid overwhelming the local network operations 
center ("NOC") by using software that can read congestion at the 
local level and sort call traffic automatically.  As a result, TSN 
systems are able to offer the quickest and highest percentage 
possible for call completion.
	In order to obtain power and database redundancy, TSN 
providers deploy systems at sites straddling the nation's three 
power interconnects, ensuring constant access to power during 
emergencies; if one of the major power interconnects fails and all 
back-up resources have been expended, the TSN system provider 
can redirect calls to its operational centers located on the other two 
power interconnects to ensure that its users' messages are sent.  
Furthermore, if there is a power failure or other problem associated 
with a data center in a geographic area, the TSN technology can 
automatically extract information (e.g., the phone numbers to 
which calls should be sent) from a redundant data center in another 
geographic area.  Each data center also is supplied with its own 
back-up systems (gas generators, etc.) to allow the center to remain 
operational should it experience a power failure.  Thus, users of 
TSN providers' systems maintain the ability to send messages even 
in circumstances where the user's primary site, or one of its other 
sites, may lack electrical power.
	Multiple redundancies are only one of the features that 
distinguish advanced TSN systems from predecessor technologies.  
Other benefits offered by TSN technology in providing urgent 
communications include the following:
	The architecture of intelligent TSN systems minimizes local 
phone line congestion.  TSN systems have intelligent delivery 
capability, utilizing mathematical algorithms to analyze network 
congestion and to automatically adjust to the point-of-present 
capacity.  Where call congestion is detected, TSN systems can 
throttle down how frequently calls are sent while simultaneously 
looking for less congested paths.  Thus, for example, when NTI's 
advanced TSN technology detects a certain level of congestion, it 
can redirect calls to other central offices, so that a local telephone 
network is less likely to be "exhausted" by urgent calls.
	Predecessor systems with unsophisticated delivery detection, 
on the other hand, are not aware of congestion.  They are simply 
programmed to send one call per line upon the previous call's 
completion.  If the system is large enough to get calls through 
quickly, meaning, if enough phone lines are employed to send calls 
at one time, then the system could potentially choke the local 
telephone network to the point of collapse.  If the system is small 
enough to not cause this type of congestion, it is most likely not 
going to have enough capacity to get calls out to a large number of 
recipients quickly.  
	TSN systems send messages at faster speeds than their 
technological predecessors.  Unlike predecessor notification 
systems, TSN systems are not limited to the number of telephone 
ports installed by the user.  Rather, TSN systems are capable of 
originating thousands of calls over several different carriers' 
networks simultaneously, allowing users to deliver significantly 
more messages in substantially less time (and providing 
redundancy protection should one carrier experience its own 
congestion or failure) than older notification technologies.  For 
example, NTI's advanced TSN system is currently delivering 
400,000 thirty-second voice messages in a half-hour and has 
contracted Service Level Agreements ("SLAs") to ensure the 
capacity to deliver well over that amount.  As discussed above, by 
employing software that can read congestion at the local carrier 
level, TSN providers are better able to ensure that more calls can 
get through the pipe at the local level quickly by minimizing 
network congestion (fast busy signals).  This performance stands in 
stark contrast to predecessor systems' slower speeds, which are 
causing some municipalities to consider making equipment 
upgrades to increase their system speeds. 
	TSN technology provides message consistency and facilitates 
the use of a "credible spokesperson."  According to the FCC's 
Katrina Panel, one of the shortcomings in the dissemination of 
emergency information during last year's storms was the confusion 
engendered by the lack of a consistently accurate and reliable 
source of information.  The failure of the impacted communities to 
fully utilize the existing EAS meant that the public was dependant 
on reports from mass media sources (particularly broadcast radio 
and television) that often misconstrued events or provided 
inaccurate information.  Even where the EAS was operational or 
media reports were accurate, the information provided tended to be 
either over or under inclusive in terms of its relevance to the 
various areas impacted by the disaster.  
	Relying on the mass media to get timely, accurate and relevant 
information to our citizenry poses risks that we can ill-afford.   In 
contrast, TSN systems have the advantage of ensuring that the 
information delivered to the public is both uniform and tailored to 
the audience.  TSN systems can deliver consistently worded 
messages to as many or as few recipients as is appropriate given 
the circumstances.  Thus, for example, in the event of a health 
crisis, times and instructions for the receipt of medical treatment 
could be delivered on a neighborhood-by-neighborhood basis, 
minimizing the risk of institutions being overwhelmed by panic-
stricken citizens.
  	A related advantage of TSN systems is that they permit 
governmental entities to communicate emergency information 
through a familiar voice of authority, be it the voice of a mayor, 
county executive, governor, school superintendent or another 
recognized "credible spokesperson."  The benefit of using a 
"credible spokesperson" to speak to the public in times of 
emergency is widely recognized.   As Dr. Julie Gerberding, the 
Director for the Centers for Disease Control and Prevention, said 
in the context of communicating to the public about a smallpox 
threat, "Now, people really look toward the most credible 
spokesperson, especially when there is a lot of uncertainty on an 
issue, and that's going to be very important and helpful to us to 
have people at the local level that are trusted and credible come out 
and be able to educate people about this.  We're really counting on 
that."   Only an emergency notification system that allows a single 
point of presence to formulate and deliver the message can achieve 
the goal of a "credible spokesperson." 
	Advanced TSN systems offer interactive functionality, 
including call delivery reporting.  Advanced TSN systems are 
interactive, allowing the government entities that use the system 
not only to create and send messages, but also to receive 
information in response.  For example, the "sending" party can 
deliver a TSN message that requests the receiving party's location 
or that inquires whether the receiving party needs assistance; the 
receiving party, by using his or her phone's touch-tone capability, 
can provide an appropriate response, thereby facilitating urgent 
relief efforts.  This interactive capacity allows those engaged in 
emergency management to determine whether their messages have 
been received - an important advantage over anonymous, one-way 
broadcast technologies. 
	Another significant feature of advanced TSN systems is their 
superior reporting capability.  For example, NTI's advanced TSN 
technology allows the originator of the emergency communication 
to receive a report of successful and unsuccessful message 
deliveries - distinguishing between "live" reception, voice-mail 
reception, non-reception and non-working numbers - all within 
minutes of sending the message.  The sender then has the option to 
resend calls to those who did not receive the message.
	TSN systems possess multi-lingual capability.  Another issue 
raised by the Katrina Panel was the need to ensure that emergency 
information was available to non-English speaking Americans.  
TSN systems can be and are used to deliver messages (and receive 
responses) in a number of different languages.  As a result, broad 
utilization of TSN providers would help address the concern raised 
by the Katrina Panel regarding the need to improve the provision 
of multilingual emergency communications in areas in which 
languages other than English are of primary fluency.
	TSN technology can manage increased scalability.  Predecessor 
notification systems are not scalable because they are limited by 
the number of phone lines to which they are connected.  For 
example, implementing a standard auto-dialer system typically 
involved the deployment of pieces of equipment supported by 
between 24 and 96 phone lines.  And while it was possible for such 
a system to increase capacity by adding additional phone lines, 
doing so would risk overloading the local network as discussed 
above.  In short, the types of automated notification systems that 
pre-date advanced TSN technology simultaneously are too large, in 
terms of costs, equipment and maintenance, and too small, in terms 
of their ability to send vast amounts of messages quickly.
	In contrast, the users of TSN technology face far fewer 
limitations, as the systems on which they rely are built to scale and 
can send outbound calls through a number of different 
telecommunications carriers' networks, assuming that they have 
entered into the necessary agreements to do so.  This carrier 
redundancy allows TSN systems to far exceed the volume of calls 
of a predecessor system.
	TSN systems are reliable and user-friendly.  TSN providers' 
use of multiple power interconnects and multiple 
telecommunications carriers means that an outage at one point of 
the network will not terminate a user's ability to send messages.  
Predecessor systems are susceptible to a single point of failure, 
which can occur at many points of the message's path - such as an 
operational problem with the predecessor system's machines or a 
flood, fire, or electrical outage at the site of the predecessor 
system's equipment center.  Due to cost constraints, most users of 
predecessor notification systems do not add redundant equipment 
or back-up power to their systems.  Thus, these systems remain 
prone to the "single point of failure" problem.
	TSN systems, on the other hand, use their power and carrier 
redundancies to send hundreds of thousands of calls each day, 
compiling a reliability record that far exceeds that of predecessor 
systems.  TSN systems also enjoy a higher success rate in 
recognizing answering machines than most predecessor systems.  
Using its advanced TSN technology, NTI successfully placed more 
than 54 million time-sensitive calls in 2005, and is currently 
delivering more than ten million time-sensitive calls per month.
	TSN systems are well-suited for use in rural areas.  Rural users 
of TSN technology (including local and state governments) can 
obtain a reliable means by which to communicate more quickly 
with the general public for less cost than predecessor systems.  
Because TSN systems utilize a "hosted" application, TSN system 
users, including those in rural areas, do not have to pay for 
maintenance of equipment, as they would with predecessor 
systems.  In addition to offering the advantage of a lower cost 
structure, TSN technology has proven reliable in completing a 
large number of calls in a concentrated geographic area which are 
the conditions that would face a rural community during an urgent 
situation.  Most importantly, the ubiquity of land-lines, coupled 
with the rapid adoption rate of cell phones, ensures that residents 
of rural areas will have access to up-to-date information relevant to 
their specific geographic location.
	Operationally, TSN providers' geographic and carrier 
redundancies facilitate least-cost routing of calls.  Should a 
user/owner of a predecessor system wish to repeat the same level 
of redundancy at the data center and call origination center level, 
significant costs would be incurred to establish and maintain such 
facilities.  TSN providers are able to defray the costs of 
redundancies, SLAs, insurance, customer service maintenance, and 
upgrades across thousands of users rather than just one making 
them the best choice given current available options.
	TSN technology is compatible with other alerting standards.  
The FCC has long recognized the importance of compatible 
alerting technologies to inform and safeguard the American public 
during emergencies.   TSN systems are compatible with other 
alerting standards, such as Common Alerting Protocol ("CAP").  If 
the FCC was to choose CAP a baseline alerting architecture, most 
TSN systems would be able to communicate seamlessly with the 
rest of the Commission's EAS network.

Examples of Emergency Communications via TSN Systems
        As noted, the Katrina Panel identified a number of 
shortcomings in the performance of emergency communications 
systems before, during, and after last summer's catastrophic 
storms.  However, the Panel also cited some success stories.  One 
of the bright spots noted by the Panel was the performance of new 
technologies, such as TSN technology.  Indeed, NTI's Connect-
EDr TSN system was used by school systems in the areas affected 
by the storms to deliver over 2.3 million hurricane-focused 
messages to members of the public.  Examples of how TSN 
technology supplemented and enhanced information provided by 
traditional EAS means include the following:
	<bullet> Before and after both Hurricane Katrina and Hurricane 
Rita, the East Baton Rouge Parish School district used the 
Connect-ED system to send urgent messages to more than 
34,000 phone numbers to inform families and employees 
about school closings.  In all, the district sent over 11 
hurricane-related messages to their constituents.
	<bullet> After Hurricane Katrina made landfall, the Lafayette Parish 
School District sent messages to nearly 300 transportation 
employees to request that they volunteer their assistance in 
a city-wide rescue operation.  The parish also delivered 
several messages to over 56,000 phone numbers regarding 
pre- and post-Katrina school closings and reached over 
61,000 phone numbers with advance information regarding 
Hurricane Rita.

        I could give you numerous other examples.  However, there is 
one particular example that merits a more detailed description.  In 
advance of Hurricane Katrina, the St. Charles Parish school district 
used TSN technology to send out an evacuation message to over 
21,000 phone numbers.  Moreover, the use of TSN to provide 
information to the residents of the parish did not end with the pre-
storm notices.  The school district's communications director, 
Rochelle Cancienne, continued to send TSN messages in the 
storm's aftermath in order to assist the parish's Emergency 
Operations Center in communicating with a community that was 
largely un-served by television or radio due to power outages and 
other service disruptions.  Working with NTI's client care center - 
sometimes in the middle of the night or pre-dawn hours - Ms. 
Cancienne was able to use her cell phone to send TSN messages 
reassuring residents that the reports that were being circulated by 
the media regarding the extreme devastation wrought by the storm 
were not reflective of the conditions in their particular parish.  
Specific examples of the kinds of information sent out using TSN 
technology included:
	<bullet> information regarding the extent and location of damage 
within the parish and the reconstruction and reopening of 
the parish's schools;
	<bullet> job-related information targeted to school district 
employees (the largest employee base in the parish); and 
	<bullet> information targeted specifically to the families of the 
additional students re-located to the parish from other 
school districts in the greater New Orleans area.

        In total, the school district successfully completed more than 
114,000 calls to some 21,000 residents over a 27 day period, a 
remarkable achievement given that the local telephone 
infrastructure was greatly distressed due to the hurricane.
        The use of TSN technology before, during, and after Hurricane 
Katrina played a key role in holding the St. Charles Parish 
community together in a time of extraordinary crisis.  As Ms. 
Cancienne has noted, prior to deploying NTI's TSN system, the 
school system's most effective means of mass communications was 
over the PA system at Friday night football games
The use of TSN technology also provided ancillary benefits by 
helping the Parish's Emergency Operations Center to monitor the 
capacity of the local telephone lines by constantly analyzing their 
call delivery reports.  Message delivery success rates in the school 
district dipped as low as 8% on August 29th but climbed back up to 
28% just seven days later.  Within a month, the district was back to 
a standard +80% success rate.  In the future, the district has 
proposed working with the phone company to overlay data to 
determine where outages have been repaired.
 	As a result of its experience in using TSN technology during a 
major crisis, St. Charles Parish School District is now collecting 
contact information from all staff members and the parents of 
children enrolled in its schools three (3) times per year rather than 
once per year in order to ensure that data is up-to-date.  
Furthermore, the district is accepting relocation contact 
information so that they can communicate with staff and families 
who have evacuated - improving the likelihood that local citizens 
will receive important information from community officials even 
when local telephone lines might be impacted within the parish 
itself.

TSN Technology and the WARN Act 
        The examples given above all involve the use of TSN 
technology by school officials to communicate with parents and 
staff.  This reflects the fact that TSN services (such as NTI's 
Connect-ED service) principally have been targeted to educators as 
a tool not only for use in emergency communications (such as 
school lock downs, weather closings, etc.), but also on a daily basis 
for parent-teacher outreach and attendance monitoring.  However, 
in light of the significant role that TSN systems were able to play 
in providing essential information during last year's storms, a 
growing number of municipalities are expressing interest in 
utilizing the technology as a key component of their community-
wide emergency response programs.  NTI has recently launched a 
new service, called the Connect-CTYT service, in response to this 
demand.  
        The best way for local communities to enhance their 
emergency communications capabilities to incorporate 
technological advances such as TSN technology is through 
voluntary public/private efforts.  For example, in comments filed 
in the FCC's ongoing EAS proceeding, NTI has urged that the 
agency include TSN services in funded pilot programs.  NTI also 
has urged the FCC to recognize TSN systems as "eligible services" 
under the E-rate program.  
        The WARN Act is of crucial importance because it reflects a 
clear recognition of the limitations of current emergency 
notification systems.  The Act provides for the establishment of a 
National Alert System ("NAS") whose functions already are 
achievable with TSN technology.  For example, the Act calls for 
an NAS that:
	<bullet> will "supplement existing Federal, state, or local 
emergency warning and alert systems"; 
	<bullet> will "be designed to provide alerts to the largest portion of 
the affected population feasible" and to "improve the 
ability of remote areas to receive alerts";
	<bullet> will be "flexible enough in its application to permit 
narrowly targeted alerts"; 
	<bullet> will "not require members of the public to activate a 
particular device"; and
	<bullet> will provide "secure widely dispersed multiple access 
points" and "system redundancies to ensure functionality in 
the event of power system failures" or other interruptive 
events. 

        As described above, TSN technology meets these statutory 
goals today.  TSN systems already are being used to supplement 
the existing EAS and for providing alerts to the affected 
population, including targeted alerts to specific at-risk groups.  It is 
well-suited for use in rural areas and does not require the activation 
of a particular device.  Finally, multiple access points and 
redundancies that ensure the system's functionality are inherent in 
the design of enhanced TSN services.  
        There is no question that we, as a nation, need to be forward-
looking in our thinking about emergency communications and we 
simply cannot wait another four or five years before upgrading our 
alert capabilities to take advantage of advanced technologies.  In 
particular, we believe there is an immediate need for pilot 
programs that will demonstrate the feasibility of incorporating 
existing enhanced technologies into an improved national alert 
system. As the provider of one such advanced alerting system, we 
heartily endorse the WARN Act and look forward to working with 
members of the Subcommittee as the bill moves forward.

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

	MR. UPTON.  Thank you.  Mr. Jackson.
        MR. JACKSON.  Good morning, Chairman Upton, Mr. Markey, 
and members of the subcommittee.  My name is Michael Jackson.  
I am the Sheriff of Prince George's County, Maryland.  I appear 
before you today on behalf of one of the largest counties in the 
National Capital Region.  Currently, I also serve as the First Vice 
President of the Maryland Sheriffs' Association and the 
Secretary/Treasurer for the National Sheriffs' Court Officers & 
Deputies Association.  Before I begin, I would also like to take this 
time to thank Congressman Albert Wynn for his leadership on the 
critical issue of national alert communications and for 
recommending that I appear here today.
	First, I want to applaud the original co sponsors of H.R. 5785, 
the WARN Act, for their vision and foresight in realizing the need 
for updating the Nation's Emergency Alert System.  
Modernization of emergency communications for the public is 
essential for a sound homeland security policy.  Even more 
important is that a new system incorporate new forms of 
communication such as cell phone and Blackberries.  I am pleased 
to say the WARN Act does just that.  I would like to commend the 
wireless industry for combining their efforts with the National 
Center for Missing and Endangered Children, NCMEC, and law 
enforcement agencies.  The wireless Amber Alerts initiative will 
be a catalyst for the wireless industry's more than 200 million 
wireless subscribers to aid in the return of an abducted child.  The 
NCMEC is solely responsible for creating the content for an alert 
distributed to wireless carriers through Syniverse Technologies.
	Prince George's County, Maryland, is located in the heart of 
the Baltimore/Washington corridor.  The county borders 
Washington, D.C., and is just 37 miles south of the City of 
Baltimore.  The population exceeds 820,000 with a daily work 
population of over one million.  Covering an area of close to 500 
square miles, the county is home to many businesses, as well as 
State and Federal agencies.  Some of the Federal agencies include 
NASA's Goddard Space Flight Center, Andrew's Air Force Base, 
which is home to Air Force One, several Smithsonian support 
centers, the Federal Census Bureau, U.S. Department of 
Agriculture's Beltsville facility, the Federal Records Center, a 
large IRS office complex, and the NOAA Center for Weather and 
Climate Prediction, a critical partner in building and maintaining 
the national alert system.  Additionally, a large part of the region's 
Metro system and Interstate 95 will pass through Prince George's 
County.
	For most communities in America, the threat of terrorism 
remains just that, a threat.  Only two areas in the United States 
have experienced the heinous acts of foreign-born terrorism and 
understand the need to support public alertness as well as first 
responder emergency communications interoperability.  Therefore, 
Prince George's County is in a prime position to offer perspectives 
on how to address the need, impact, and practicality of a new 
public alert system.  Prince George's County is a prime target for a 
terrorist attack because of its close proximity to the District of 
Columbia.
	What I have just explained is the grim reality facing the 
National Capital Region.  A modern national alert system could 
have helped the public during 9/11.  However, H.R. 5785 is only 
the first step in a long road ahead toward not just notifying the 
public, but our first responders as well.  One of the best provisions 
of the bill is that the Federal, State, and local emergency managers 
can input alerts into the system and have them directed out to a 
geographically targeted section of the population.  As public safety 
officers, we have been watching our Nation grapple with homeland 
security implementation issues highlighting how critical 
congressional oversight is to the process.
	To that end, I urge that the lawmakers use this system as a 
platform to draw attention to not just a well-informed public, but a 
well-wired first responder community.  It is almost ironic that we 
are discussing the system now in the face of dangerous cuts to 
Urban Areas Security Initiatives, UASI, and constant reductions in 
funding for the Nation's first responder grant programs.  Just last 
month, Maryland officials testified to the House Government 
Reform Subcommittee on national security stating how much the 
cuts to UASI would devastate State homeland security 
preparedness operations.  My Sate sustained more than a 50 
percent cut to UASI for the National Capital Region.  Maryland 
officials testified to House Members that they thought if they had 
done nothing and not even filled out the UASI application for 
2006, they would have received around $10 million.  In reality, 
Maryland received $8 million.
	Prince George's County is in a unique position when it comes 
to emergency communications, as we are the only county in the 
National Capital Region that does not have an interoperable radio 
system.  We are the hole in the communications net that covers the 
Capital Region.  The County Executive is committed to fixing this 
problem and fast.  But a $75 million plus pricetag makes this a 
daunting task.  This is not a county need; this is a regional need 
with national implications.
	We would recommend that the National Alert System Working 
Group have at least one public safety official and/or local 
government executive from a locality with the National Capital 
Region, ensure that the National Alert Office in the National 
Telecommunications and Information Administration coordinate 
with the appropriate Federal agencies to provide expertise on the 
best methods to assess the government's disaster preparedness, 
consider an advance alert and local government participation 
requirement for county executives and mayors so that they are 
notified in advance if an emergency alert is going to be broadcast 
in their jurisdictions.
	Challenges ahead include what 9/11 and Hurricane Katrina 
have taught us that the local alerts are not enough.  Perhaps with a 
regional warning system in place, the jurisdictions in surrounding 
areas directly affected could have provided a quicker and more 
efficient response, allowing more time for agencies such as FEMA 
and the Red Cross to properly implement their aid and service 
plans.  I can say confidently that local public safety officials are 
ready to work with you in making a modern national alert system a 
reality.  I thank you for your time.
	[The prepared statement of Michael Jackson follows:]

PREPARED STATEMENT OF SHERIFF MICHAEL JACKSON, VICE 
PRESIDENT, MARYLAND SHERIFFS' ASSOCIATION

I. INTRODUCTION
        Good morning, Chairman Upton, Congressman Markey, and 
Members of the Subcommittee, my name is Michael A. Jackson. I 
am the Sheriff of Prince George's County, Maryland. I appear 
before you today on behalf of one of the largest Counties in the 
National Capitol Region. Currently, I also serve as the 1st Vice-
President of the Maryland Sheriff's Association and the 
Secretary/Treasurer of the Court Officers Board Association.  
	Before I begin, I also want to take this time to thank 
Congressman Albert Wynn for his leadership on the critical issue 
of national alert communications and for recommending that I 
appear before you today.

II. The WARN Act and the realities facing the National Capitol 
Region
        First, I want to applaud the original co-sponsors of HR 5785, 
the Warning, Alert, and Response Network Act for their vision and 
foresight in realizing the need for updating our Nation's 
emergency alert system. Modernization of emergency 
communications for the public is essential for a sound homeland 
security policy. Even more important is that a new system 
incorporate new forms of communication such as cell phone and 
Blackberries; I'm pleased to say the WARN Act does just that. 
        I would also like to commend the wireless industry for 
combining their efforts with the National Center for Missing and 
Endangered Children (NCMEC) and law enforcement agencies.  
The wireless AMBER Alerts Initiative will be a catalyst for the 
wireless industry's more than 200-million wireless subscribers to 
aid in the return of an abducted child.  The NCMEC is solely 
responsible for creating the content for an alert distributed to 
wireless carriers through Syniverse Technologies.
	 Prince George's County, Maryland is located in the heart of 
the Baltimore/Washington corridor.  The county borders 
Washington, DC and is just 37 miles south of the City of 
Baltimore.  The County's population exceeds 820,000 with a daily 
work population of well over one million. Covering an area of 
close to 500 square miles, the County is home to many businesses, 
as well as state and federal agencies. Some of the Federal agencies 
include NASA's Goddard Space Flight Center, Andrew's Air 
Force Base, several Smithsonian support centers, the Census 
Bureau, U.S. Department of Agriculture's Beltsville facility, a 
Federal Records Center, a large Internal Revenue Service office 
complex, and the NOAA Center for Weather and Climate 
Prediction - a critical partner in building and maintaining the 
National Alert System.   Additionally, a large portion of the 
region's Metro system and Interstate 95 pass through Prince 
George's County. 	
        For most communities in America, the threat of terrorism 
remains just that; a threat.  Only two areas of the United States 
have experienced the heinous acts of foreign-born terrorism and 
have led all of us to understand the need to support public alertness 
as well as first responder emergency communications 
interoperability. Prince George's County is a prime target for a 
terrorist attack because of its close proximity to the District of 
Columbia.  Therefore, Prince George's County is in a prime 
position to offer perspectives on how to address the need, impact, 
and practicality of a new public alert system.



III. The WARN Act, a good first step in a long journey ahead    
        What I have just explained is the grim reality facing the 
National Capitol Region. As I have stated, a modern national alert 
system could have helped the public during 9/11. However, HR 
5785 is only the first step in a long road ahead toward not just 
notifying the public, but our first responders as well. One of the 
best provisions of the bill is that federal, state and local emergency 
managers can input alerts into the system and have them directed 
out to a geographically targeted section of the population. 
However, as a local official, I can not help but reflect on the 
complete bureaucratic paralysis that crippled an effective response 
to Hurricane Katrina. As public safety officers, we have been 
watching our national government grapple with control and 
oversight problems with the vast management challenges involved 
in homeland security.
	To that end, I urge that lawmakers use this system as a 
platform to draw attention to not just a well informed public, but a 
well wired first responder community. It is almost ironic that we 
are discussing this system now in the face of dangerous cuts to 
Urban Areas Security Initiatives and constant reductions in funding 
for the Nation's first responder grant programs. Just last month, 
Maryland officials testified to the House Government Reform 
Subcommittee on National Security stating how much the cuts to 
UASI would devastate State homeland security preparedness 
operations. My state sustained more than a 50% cut to UASI for 
the National Capitol Region. Maryland officials testified to House 
members that they thought if they had done nothing and not even 
filled-out the UASI application for 2006, they would have received 
around $10 million. In reality, Maryland received $8 million.
	Prince George's County is in a unique position when it comes 
to emergency communications, as we are the only county in the 
NCR that does not have an interoperable radio system. We are the 
hole in the communications net that covers the Capitol Region. 
The County Executive is committed to fixing this problem and 
fast. But, a $75 million plus price tag makes this a daunting task. 
This is not a County need; this is a regional need with national 
implications. We have been working hard to secure Federal 
assistance in plugging the only hole in the net.    

IV. Recommendations   
        In looking at the WARN Act, we would make the following 
recommendations:
	<bullet> We would recommend the "National Alert System Working 
Group" have at least one public safety official and/or local 
government executive from a locality within the National 
Capitol Region.
	<bullet> Ensure that the National Alert Office in the National 
Telecommunications and Information Administration 
coordinate with the appropriate federal agencies to provide 
expertise on the best methods to assess the government's 
disaster preparedness.
	<bullet> Consider an advance alert and local government 
participation requirement for County Executives and 
Mayors so they are notified in advance if an emergency 
alert is going to be broadcast in their jurisdiction so they 
can take steps to mobilize resources.

V. Challenges Ahead 
        9/11 and Hurricane Katrina have taught us that local alerts are 
not enough. Perhaps with a regional warning in place, the 
jurisdictions surrounding areas directly affected could have 
provided a quicker and more efficient response, allowing more 
time for agencies such as FEMA and the Red Cross to properly 
implement their aid and service plans.
        I can say confidently that local public safety officials are ready 
to work with you in making a modern national alert system a 
reality. On the ground, we have seen the terrible consequences of 
poor oversight over homeland security initiatives. We have also 
seen the great strides made in building a more informed, more 
aware public. 
	When a person receives an alert on their cell phone or 
otherwise, they appreciate the information. However, the next 
thought that will occur to them will be will be "how can I get to 
my family as quick as possible?" At that point our inquiry turns to 
transportation and two-way communication built to handle a 
disaster volume of interface from the public. Thus, this truly 
important first step of many and I thank you for taking it. 
I look forward to answering any questions you may have. 

	MR. UPTON.  Thank you.  Ms. Allen.
        MS. ALLEN.  Good morning ladies and gentlemen.  Thank you 
to the committee, Mr. Chairman, and all of you for inviting me 
here today.  I am Sara Allen, President and Senior Radio Engineer.  
I am also a consultant for KTAO-FM in Taos, and KTAO has 
recently celebrated 14 and a 1/2 years of transmitter operations 
using only solar energy.  I was a member of the Federal 
Communication Commission's Media Security and Reliability 
Council, and we were tasked with developing disaster recovery 
planning tools for all forms of mass media in the United States, 
and I am happy to say we accomplished that task.
	Today I am here to represent the Prometheus Radio Project.  It 
is an advocacy group for the low power radio movement, LP-FM 
movement, and to present testimony that shows how important the 
expansion and protection of low power FM radio is to the 
emergency service and communications needs of this country.  
Low power FM radio is a popular and important service that 
allows churches, schools, and community organizations to operate 
locally operated non-commercial radio stations.  In 1999, the FCC 
created a new class of LP-FM stations, leading to hundreds of new 
stations across the country.
	While these low power FM stations serve a critical ongoing 
role in the communities they serve, I am here to speak specifically 
about the important role that local community radio, low power 
FM in particular, plays in an emergency and in the recovery of 
neighborhoods and towns after a disaster.  I hope you will agree 
that we must protect these stations and expand possibilities for 
communities to build them.  Low power radio plays a unique role 
in the FM band.  While full power stations are designed to serve 
entire metropolitan areas, LP-FM stations are, by definition, 
focused on very specific geographic targets.
	I want to tell you a success story.  It is the story of how 
Federal, State, and county government, private industry, and 
volunteers combined to create a radio station capable of covering a 
county-wide area.  WQRZ-LP is located in Bay St. Louis, 
Mississippi, and is the effort of Brice Phillips, a disabled amateur 
radio operator who foresaw disaster and several years ago made 
the effort to obtain authorization.  His motive is to ensure that the 
citizens of Hancock County, Mississippi have a reliable and 
continuous Emergency Alert System.
	After Katrina made landfall, I offered by sending offers of 
assistance to every Gulf Coast broadcaster association, as well as 
the Society of Broadcast Engineers.  On Tuesday, September 6, I 
received a call from John Poray, National Director of the SBE, 
requesting assistance for WQRZ.  I coordinated an effort to request 
an emergency authorization from the Federal Communications 
Commission which was granted.  I also arranged for the necessary 
equipment to be ordered and shipped into Hancock County.  
Working closely with Harris Corporation, the necessary equipment 
was on its way by Friday evening and began arriving on site by 
Saturday morning.
	On Sunday morning, September 11, Broadcast Engineer Gary 
Sessums and I departed from the Hillsborough County EOC in 
Tampa, bound for Bay St. Louis and the Hancock County EOC.  
We arrived that evening and joined Gary Minker, also a Floridian, 
and planned our work for the following day.  On Monday morning 
the three of us joined Brice and we began the reconstruction of 
WQRZ at Brice's surviving 120 foot tower.  Brice's home was 
totally destroyed by the storm surge.  His transmitter shack, which 
had been totally submerged in salt water, and his tower, survived 
Katrina.  Brice had taken one of the antenna bays, his transmitter, 
and some essential studio equipment to the Hancock County EOC 
where he continued to broadcast before, during and immediately 
after Katrina.  He also provided health and welfare radio traffic 
using his amateur radio and was the only means of 
communications in and out of Hancock County EOC immediately 
after Katrina.
	Brice climbed the tower several times during the next few days 
and by Thursday evening WQRZ-LP went on the air, the signal 
strong enough to cover Hancock County and the most affected 
areas, Pearlington, Bay St. Louis, Waveland, Diamondhead, Pass 
Christian and Kiln, Mississippi.  We switched programming from 
Brice's low power operation at the old EOC to the studio we had 
set up at the New Hancock County EOC, located near the Stennis 
International Airport.  I was making plans to return to Tampa.  
Tools were put away and the studio was organized and ready for 
use.  I overheard someone in the Public Information Office 
mention a press release requesting assistance to operate WQRZ, 
and I volunteered and so it began.
	You are listening to WQRZ-LP 103.5 FM, the voice of Bay St. 
Louis, Waveland, Diamondhead and the Kiln, broadcasting live 
from the Hancock County Emergency Operations Center, your 
source for information.  I reported for duty Friday morning and 
went about developing a program strategy with the Public 
Information Office.  The first day was a bit loose.  I played music 
and broadcast news and information updates as frequently as the 
PIO made them available.  I overheard talk that the Secretary of 
Homeland Security, Michael Chertoff, would be visiting the EOC, 
and as I was passing by the FEMA office, I noticed that he was 
there and he offered me his hand.  I shook it.  The broadcaster in 
me took over, I didn't let go and I followed it back to him and said, 
sir, I would like to put you on the radio to address the people of 
Hancock County.
	He agreed and became the first of many VIP guests on WQRZ.  
This led to ongoing access to VIP interviews, which included a 
congressional delegation, Vice Admiral Thad Allen, 
Undersecretary Thomas Dorr, and many other locals and 
volunteers who shared their stories with WQRZ listeners.  By the 
end of the week, I had developed programming with regularly 
scheduled in-depth updates at 8:00, noon and 5:00.  The PIO 
developed a daily newsletter which I read in its entirety.  
Whenever information was updated, I was able to immediately go 
on the air with the new, accurate information.
	And then Hurricane Rita arrived.  There was a new round of 
flooding in Hancock County and the EOC was alerting people to 
move to higher ground.  Hurricane Rita affected us in many ways.  
It put a strain on already compromised systems and the EOC lost 
grid power.  A damaged air handler motor caused a fire alarm in 
the building just as a tornado warning was being broadcast by the 
EAS.  Brice was on the air and not about to be evacuated by fire 
safety personnel, while he was broadcasting the warning which 
included the EOC in the tornado's path.
	MR. UPTON.  Ms. Allen, you exceeded your 5 minutes by 2 
minutes, and if you could just summarize.  We are having votes on 
the floor very shortly.
	MS. ALLEN.  Okay.  I will do that.  To summarize, full power 
stations should not be allowed to encroach on LP-FM stations.  
This will ensure that LP-FM stations will be able to broadcast 
accurate local emergency and disaster information without 
interference and that the communities don't lose this trusted source 
of information when they need it most.  There are many other 
stories of success and support from low power and community 
radio stations licensed to churches, schools, municipalities, and 
community groups.  Thank you the committee for giving me the 
opportunity to speak with you, and I will be happy to answer any 
questions regarding low power FM.
	[The prepared statement of Sara Allen follows:]

PREPARED STATEMENT OF SARA ALLEN,  SENIOR RADIO ENGINEER, 
CIARA ENTERPRISES, INC., ON BEHALF OF PROMETHEUS RADIO 
PROJECT

        Good morning ladies and gentlemen.  Thank you to the 
Committee, the Committee Chair, and to all of you for asking me 
here today.
	My name is Sara T. Allen, President of Ciara Enterprises, Inc. 
and Chief Consultant for KTAO-FM in Taos, NM. KTAO recently 
celebrated 14 years of transmitter operations using ONLY Solar 
Power!
	I am also a member of the Federal Communications 
Commission's Media Security and Reliability Council 2, Toolkit 
Workgroup Committee, which was tasked with developing 
Disaster Recovery Planning Tools for all forms of Mass Media in 
the U.S.
	Today I am here to represent The Prometheus Radio Project, an 
advocacy group for the low power FM radio (LP-FM) movement, 
and to present testimony that shows how important the expansion 
and protection of low power FM radio is to the emergency service 
and communications needs of this country.
	Low Power FM radio is an extremely popular and extremely 
important tool that allows churches, schools and community 
organizations to operate very small, locally operated non-
commercial radio stations.  In 1999, the FCC created a new class 
of LPFM stations, leading to hundreds of new stations across the 
country.  
        Unfortunately, Congress passed legislation blocking the FCC 
from modernizing their interference protection rules pending 
further technical study on the impact of placing these tiny stations 
between existing full-power stations.  Because of this legislation, 
hundreds of potential community stations have been blocked from 
the airwaves.  The FCC commissioned a $2.2 million study from 
the Mitre Corporation, and submitted their findings to Congress 
three years ago.   The Senate Commerce Committee has twice 
voted in support of legislation that would allow the FCC to grant 
new LPFM licenses in urban markets.  We ask that the House of 
Representatives also consider this legislation.
	While these Low Power FM stations serve a critical ongoing 
role in the communities they serve, I'm here to speak about 
specifically about the important role that local community radio, 
low power FM in particular, plays in an emergency and in the 
recovery of neighborhoods and towns after a disaster.  I hope you'll 
agree that we must protect these stations and expand possibilities 
for communities to build them. 
	Low Power Radio plays a unique role in the FM band.  While 
full power stations are designed to serve entire metropolitan areas, 
LPFM stations are, by definition, focused on very specific 
geographic targets.
	The first story I want to tell is the story of the attempt to 
provide Low Power FM radio services to the displaced citizens, 
victims of Hurricane Katrina, who were living in the Houston 
Astrodome. People need information. Several Houston community 
members developed a plan to build and operate a community radio 
station located inside the Astrodome. The proposed station 
"Evacuation Radio Services," would broadcast essential 
information. 
	The Prometheus Radio Project was contacted for assistance and 
recommended that the Houston group contact the FCC to request 
an STA.  In very short order the FCC granted authorization. 
Despite the quick action from the FCC, the Houston community 
group ran into bureaucratic resistance from the local officials at the 
Astrodome. Even with the support from the Senate Office of Kay 
Bailey Hutchinson, City Council members and the Mayor of 
Houston, Harris County officials refused to grant permission to 
allow the radio station to proceed.
	Eventually, a licensed radio station was set up outside the 
Astrodome and did provide essential information to the displaced 
residents.  FEMA notices, health notices, and vital travel 
information were shared with the residents, and the residents were 
able to tell their own stories and connect with families and friends 
after the disaster.
	The bureaucratic delays prevented the timely broadcast of 
important information to the residents.  The Houston Astrodome 
officials' reliance on their "loudspeaker" public address system led 
to the confusion and frustration of the residents. 
	Ladies and Gentlemen, anyone who has ever tried to 
understand what is being said over a stadium loudspeaker will 
agree that it is a very poor choice for communications of essential 
and detailed information.  If Congress had already acted to expand 
low power FM radio to Houston, there would have been more 
potential choices for the residents at the Astrodome and displaced 
families across the Gulf to respond quickly and appropriately to 
their local needs.
	The next story is a success story. It's the story of how Federal, 
State, and County Government, private industry and volunteers 
combined to create a radio station capable of covering a county 
wide area.
	WQRZ-LP is located in Bay St. Louis, Mississippi and is the 
effort of Brice Phillips, a disabled amateur radio operator who 
foresaw disaster and several years ago made the effort to obtain 
authorization. His motive is to insure that the citizens of Hancock 
County have a reliable and continuous Emergency Alert System.
	After Katrina made landfall, I offered my help by sending 
offers of assistance to every Gulf Coast Broadcaster Association, 
as well as the Society of Broadcast Engineers.
	On Tuesday, Sept. 6th I received a call from John Poray, 
National Director of the SBE requesting assistance for WQRZ-LP. 
I coordinated an effort to request an emergency authorization from 
the FCC which was granted. I also arranged for the necessary 
equipment to be ordered and shipped into Hancock County. 
Working closely with Harris Corp. the necessary equipment was 
on its way by Friday evening and began arriving on site Saturday 
morning.
	On Sunday morning, Sept. 11th, Broadcast Engineer Gary 
Sessums and I departed from the Hillsborough County EOC in 
Tampa, bound for Bay St. Louis and the Hancock County EOC. 
We arrived that evening and joined Gary Minker, also a Floridian, 
and planned our work for the following day.
	On Monday morning the three of us joined Brice and we began 
the reconstruction of WQRZ-LP at Brice's surviving 120 foot 
tower. Brice's home was destroyed by the storm surge. His 
transmitter shack, which had been totally submerged in salt water, 
and his tower, survived Katrina. Brice had taken one of the antenna 
bays, his transmitter and some essential studio equipment to the 
Hancock County EOC where he continued to broadcast before, 
during and immediately after Katrina. He also provided health and 
welfare radio traffic using his amateur radio and was the only 
means of communication in and out of the Hancock County EOC 
immediately after Katrina. 
	Brice climbed the tower several times during the next few days 
and by Thursday evening WQRZ-LP went on the air, the signal 
strong enough to cover Hancock County and the most affected 
areas, Pearlington, Bay St. Louis, Waveland, Diamondhead, Pass 
Christian and Kiln, Mississippi.
	We switched programming from Brice's low power operation 
at the old EOC to the studio we had set up at the new Hancock 
County EOC located near the Stennis International Airport.
	I was making plans to return to Tampa. Tools were put away 
and the studio was organized and ready for use. I overheard 
someone in the Public Information Office mention a press release 
requesting assistance to operate WQRZ-LP.
	I volunteered. So it began.
	"You're listening to WQRZ-LP 103.5 FM - The Voice of Bay 
St. Louis, Waveland, Diamondhead and the Kiln - Broadcasting 
live from the Hancock County Emergency Operations Center - 
Your Source for Information"
	I reported for duty Friday morning and went about developing 
a program strategy with the Public Information Office. The first 
day was a bit loose. I played music and broadcast news and 
information updates as frequently as the PIO made them available.
	I overheard talk that the Secretary of Homeland Security, 
Michael Chertoff, would be visiting the EOC and as I was passing 
by the FEMA office I noticed that the he was there and he offered 
me his hand which I shook, and then the broadcaster in me took 
over, I didn't let go of his hand and followed it back to him and 
said "Sir, I would like to put you on the radio station to address the 
people of Hancock County."
	He agreed and became the first of many VIP guests on WQRZ-
LP. I hadn't realized at the time that I was bucking protocol and I 
was informed later that day that I was lucky that I hadn't been 
"secured" by the Secret Service. I did, however, gain the notoriety 
and respect of the EOC leadership which led to ongoing access to 
VIP interviews which included a Congressional Delegation, Vice 
Admiral Thad Allen, Undersecretary Thomas Dorr, and many 
other locals and volunteers who shared their stories with the 
WQRZ-LP listeners.
	By the end of the first week I had developed programming with 
regularly scheduled in-depth updates at 8, noon and 5. The PIO 
developed a daily newsletter which I read in its entirety. Whenever 
information was updated I was able to immediately go on the air 
with the new, accurate information.
	Hurricane Rita arrived. There was a new round of flooding in 
Hancock County and the EOC was alerting people to move to 
higher ground.
	Hurricane Rita affected us in many ways. It put a strain on 
already compromised systems and the EOC lost grid power. A 
damaged air handler motor caused a fire alarm in the building just 
as a Tornado Warning was being broadcast by the EAS. Brice was 
on the air and not about to be evacuated by fire safety personnel 
while he was broadcasting the warning which included the EOC in 
the tornados' path. That was an exciting moment.
	WQRZ-LP was off the air. Flood waters had prevented easy 
access to the transmitter site and logistics was unable to refuel the 
generator. Brice decided to take matters into his own hands and 
floated 10 gallons of diesel fuel wading several hundred yards 
through the flood waters to make sure the citizens of Hancock 
County had access to important EOC and EAS information. 
Thanks to his efforts WQRZ-LP was back on the air, but as a 
consequence, Brice came down with bronchitis and pneumonia and 
I stayed at the radio station for another week while he recuperated. 
I insisted that he take the time to recover so that he wouldn't 
relapse and I could return home. Brice took my advice and rested 
until he had recovered and he was able to once again take over the 
controls at WQRZ-LP. Brice continues to bring the residents of 
Hancock County essential news and information directly from the 
EOC and will continue to do so as long as necessary.  As you will 
read about in the packet of information I've brought, WQRZ-LP 
served and continues to serve as a lifeline for the residents of Bay 
St. Louis and Hancock County, Mississippi.  With a new 
amendment to expand low power FM on H. R. 5785, this 
committee can bring stations like WQRZ-LP to hundreds, if not 
thousands, of communities that need them.
	I lived and worked at the Hancock County EOC for 28 days. 
Bay St. Louis, Waveland, Diamondhead and the Kill will no longer 
be just a place on the map, but for me, a place that I called home.
	LP-FM radio stations have proven to be a valuable resource 
before, during and after disaster. To continue this service and 
improve upon it, organizers from the Low Power FM community 
make the following recommendations to Congress:
	To ensure that the greatest numbers of LP-FM stations are 
available and able to provide service and information in times of 
emergency and disaster, this Committee can amend the language of 
Senate Bill 312, sponsored by Senators John McCain, Maria 
Cantwell, and Patrick Leahy, onto House Bill 5785.   This same 
language was recently amended to Senator Stevens' 
telecommunications bill, SB 2686, with a vote of 14 for, and 7 
against.  Senate Bill 312 would expand low power FM radio to 
frequencies that were restricted for five years, while the FCC 
studied whether or not there would be interference to existing 
stations from new LPFM stations.  Now that the Commission has 
proven with a 2.2 million dollar study that there is room for these 
essential stations on the dial, we hope you will move quickly to 
amend this bill to expand low power FM radio.  
	Furthermore, this Committee can move to protect those low 
power FM stations on the air.  As you can read in Congresswoman 
Slaughter's recent bill, HB 3731, many current LP-FM stations are 
under threat of being knocked off the air by full power 
broadcasters, leaving hundreds of communities without the local 
service they need in safety or in disaster.

	Full power stations should not be allowed to encroach upon 
LP-FM stations. This will ensure that LP-FM stations will be able 
to broadcast accurate local emergency and disaster information 
without interference and that the communities don't lose this 
trusted source of information when they need it most.
	There are many other stories of success and support from low 
power and community radio stations, licensed to churches, schools, 
municipalities, and community groups, included in the packet I've 
brought.  To reiterate, it is community radio which is so vitally 
placed to provide information, relief and communications before, 
during and after an emergency. Thousands of volunteers and 
potential community broadcasters stand by ready to help.
	Finally, as an experienced engineer and someone who has 
worked with stations who use the Emergency Alert System (EAS), 
I see a great opportunity with HB 5785 to diversify and specify the 
alerts broadcast to new communities and for new situations.  With 
EAS, a radio station has the option of selecting which alerts it uses, 
for example -- nuclear attack, weather, child abduction, etcetera. 
Some alerts are mandatory for the station to broadcast, but others 
may be selected by the broadcaster when the alert system is first 
set up.
	Low power FM stations broadcast in particular communities 
may broadcast in many languages, from Hmong to Spanish to 
Zapotec.  It would be ironic and tragic if some listeners could not 
understand an emergency alert with life saving alert because their 
English was not yet strong enough to comprehend detailed 
emergency instructions.  It would greatly enhance the efficacy of  
EAS if it had multiple language capabilities. As I see it this would 
not require hardware changes or new equipment, just an update of 
software that seems well worth it, in the service of our 
communities.
	Thank you to the Committee for giving community radio this 
opportunity to speak.

	MR. UPTON.  Great.  Thank you all for your testimony.  I know 
that we all have a number of questions, and I just would like to 
relate a story this morning that happened in Michigan.  I talked to 
my dad on the phone this morning, and he said a big storm just 
came through.  It was unbelievable.  I don't think it was the same 
storm that went through St. Louis, but it was a big major 
thunderstorm that came off of Lake Michigan.  And I can 
remember well about 2 years ago we had one of those microburst 
storms.  It was literally hurricane winds.  It was almost unheard of 
that came across the lake, and it decimated a small area, probably 
no more than a quarter of a mile, and it went in about a quarter of a 
mile.  It actually moved a 100-foot cement smoke stack an inch off 
the base in terms of the storm that went through.
	It goes back to Mr. Pitts' story about being able to alert folks 
within a bus stop area or maybe a five-block area in terms of a 
major storm or an emergency that came through, and I guess, Mr. 
Pitts, it is difficult to call you that because it is Billy, as you 
described your system that in essence can be put into place now, 
you would be able to inform folks within that area based on their 
telephone number.  Is that correct?
	MR. PITTS.  Yes, sir.
	MR. UPTON.  And in this specific example what if it was 
someone--I mean are you able to beam a signal to that specific cell 
phone or are you able to say that individual lives in Maryland and 
they are in Washington, D.C., and therefore that is the five-block 
area that is going to be picked or what if your cell phone number or 
your residence number or business originates someplace else and 
you happen to be there, how does that work?  How are you able to 
funnel it to the people that are in the path of that storm or the path 
of that emergency?  Are you able to do that?
	MR. PITTS.  There is a difference right now in the technology 
between landline phones and cell phones.
	MR. UPTON.  Let us say it is a cell phone or a PDA.  I guess 
yours is just a phone, right, it is not even though I've got both on 
my Blackberry?
	MR. PITTS.  The current technology that we are using with 
respect to municipalities uses primarily landline phones because 
we have got the latitude, longitude of each, so you could literally 
go to a map, draw a ring or a polygon around whatever area you 
wanted to call.  Immediately all the residence and business phones 
would be available to call immediately.  We don't quite have the 
technology now to do that with all cell phones.  As was discussed 
earlier, that is the problem with the E911.  I know there are new 
software developments coming forward.  We are working with 
people on that.  So the cell phone technology is currently a 
problem.
	The municipalities input the cell phone numbers in with the 
residents.  We will take up to three different numbers for each 
residence, two for each business, so they input them.  But if the 
person has the cell phone and is outside the area they would be 
getting it outside the area.
	MR. UPTON.  And, Mr. Lawson, the system that you 
demonstrated a little while ago, is that able to in essence get a 
small localized area as well to be alerted versus an entire--how 
does that work?
	MR. LAWSON.  Right now our job is to give the signal to the 
other media and communications carriers and they redistribute.  If 
they can localize it, fine.  We can certainly send information that is 
designed for a geographically targeted region.  In the future, 
because our system is addressable in place, DTV receivers could 
be individually accessed.  Everybody would receive the signal 
through their antennas, but only certain receivers could decode the 
data.  So eventually, yes, we could geographically target.
	MR. UPTON.  Now I would like each of you to answer this 
question, and then we will go to Mr. Wynn for some questions.  
We have a series of votes so we will have to stop and adjourn for a 
short time and then come back.  Should the National Alert System 
remain a voluntary system or should we mandate it?  I will just go 
down the panel. Ms. Allen.
	MS. ALLEN.  It is my belief that it should be mandatory
	MR. UPTON.  It should be mandatory.  Mr. Jackson.
	MR. JACKSON.  I concur, Mr. Chairman.
	MR. UPTON.  Mr. Pitts.
	MR. PITTS.  That is difficult for me, Mr. Chairman, as a former 
broadcaster because the broadcasters don't like that but I think it is 
about time that we start mandating some kind of emergency alerts.
	MR. UPTON.  Mr. Kelly.
	MR. KELLY.  I agree, mandatory.  It is critical.
	MR. UPTON.  Mr. Guttman-McCabe.
	MR. GUTTMAN-MCCABE.  I would say it should in essence be 
voluntary for certain systems.  Our system is different.  It is not a 
point to multi-point.  It is a point to point.  And I just personally 
believe that our industry will respond in its creative manner if it is 
not mandated.  We have that in Amber Alerts and we have that in 
Wireless Priority Service.
	MR. UPTON.  Mr. Lawson.
	MR. LAWSON.  Our participation in the current EAS is 
mandatory.  The WARN bill would make our participation of the 
National Alert System mandatory.  We support that.
	MR. UPTON.  Mr. Knapp, I don't know if you can respond.
	MR. KNAPP.  I am afraid not.  We have an open proceeding and 
it wouldn't be appropriate.
	MR. UPTON.  I am just giving you some protection.
	MR. KNAPP.  That is fine.  Much appreciated.
	MR. UPTON.  Mr. Wynn.  By the way, for other members that 
are here, after Mr. Wynn has concluded, we will take a brief 
adjournment and come back, so Mr. Wynn.
	MR. WYNN.  Thank you, Mr. Chairman.  I think one or more of 
you mentioned the concept of multi-lingual capacity.  Of those 
who I would call the messengers on the panel, and I mean that with 
the highest regard, do you have multi-lingual capacity and do you 
believe that that is appropriate for a system such as this?  Any of 
the messengers?  Mr. Pitts.
	MR. PITTS.  Yes, sir.  We do have multi-lingual capacity, and 
we do think it is appropriate.
	MR. WYNN.  Anyone else want to volunteer a sentiment?  Mr. 
Lawson.
	MR. LAWSON.  Public television definitely has it.  In fact, even 
on our multicast television, digital television, we are watching a 
Spanish language television channel.
	MR. WYNN.  Anyone else?
	MR. GUTTMAN-MCCABE.  Congressman, I would just add that 
we envision the WARN Act coming up with those types of 
requirements and through the process, and if that is one of the 
requirements that comes out of the process we will address that, 
the wireless industry will address that.
	MR. WYNN.  Thank you.  Mr. Knapp, what would be a 
reasonable length of time to expect the industry to define necessary 
protocols and performance criteria for specific technologies?
	MR. KNAPP.  It is always hard to predict but it really shouldn't 
take that long because I think you have already seen demonstrated 
some of the technologies that are available today and so it would 
just be a matter of testing them and nailing down the standards.
	MR. WYNN.  Are we talking about maybe a year?
	MR. KNAPP.  I don't know.
	MR. WYNN.  It is kind of adrift in government.
	MR. KNAPP.  I can't put a number on it.
	MR. WYNN.  That is fine.  Mr. Guttman-McCabe, there is 
always a difference between our Government wish list and what 
technology can deliver.  Would one year be enough time, do you 
think, to resolve those type of issues?
	MR. GUTTMAN-MCCABE.  In terms of sort of setting down the 
requirements and then working towards standards, I think we could 
sit down the requirements within a year, absolutely.  And then we 
would work toward setting standards so that we could integrate it 
into our networks.
	MR. WYNN.  I have one final question.  A couple of speakers, I 
believe, you, Mr. Guttman-McCabe, and also Mr. Kelly mentioned 
liability protection.  That is always a highly contentious issue here 
in the Congress particularly when we try to do good.  We are 
trying to do good here.  Would you comment a little more about 
the liability protection issue?
	MR. GUTTMAN-MCCABE.  Certainly.  Congress saw fit in 1999 
to extend liability protection to the E911 service, and I think that 
model would be appropriate here.  Our devices at times when you 
push send on a signal we work hard to make sure that the 
overwhelming majority of the calls go through.  But I think it was 
Mr. Kelly that said that we want to make sure that the industries 
that participate are not subject to frivolous lawsuits.  And 
unfortunately our industry at times tends to be a target of such 
lawsuits so I think it would be in the interest of the country, it 
certainly would be in the interest of our industry, to have that type 
of liability protection as we do in the 911 space.
	MR. WYNN.  Mr. Kelly, would you care to comment?
	MR. KELLY.  Yeah, I agree 100 percent with what he said.  
When you are a wireless service provider a lot of things can 
happen.  You are doing your best to keep the transmitters up, to 
keep the network up, but if a storm comes through and knocks over 
a tower you have got limited capability in a short period of time to 
rectify that, so being sued for something that would be an act of 
God or something out of your control is just not going to be 
conducive to long-term success in this program.
	MR. WYNN.  Is the current liability protection, does it cover 
even gross negligence as an absolute waiver of liability?
	MR. GUTTMAN-MCCABE.  Currently in your version of the Act, 
there is not liability protection.
	MR. WYNN.  No, I know.  I mean you made reference to, what, 
the 911 system?
	MR. GUTTMAN-MCCABE.  Right.
	MR. WYNN.  Is that an absolute waiver or is that--
	MR. GUTTMAN-MCCABE.  I don't know if it covers gross 
negligence, Congressman.  We will get back to your office on that.
	MR. WYNN.  I have no further questions, Mr. Chairman.  I 
relinquish the balance of my time.
	MR. UPTON.  Okay, well, we will stop.  We have three votes on 
the House floor so we will come back probably around 12:00, 
12:05.  We will reconvene.
	[Recess.]
	MR. SHIMKUS.  [Presiding] I would like to call the hearing back 
into session, and thank you for your patience.  We do have a lot of 
time now and based upon members returning, and we are just 
going to go into their chance to ask their questions.  And if I am it, 
then we can leave.  Let me ask a couple questions.  Everybody 
understands the intent of the legislation, and it is based upon as 
some folks quoted "our ability to make sure that people get 
informed."  I want to ask, because we have a lot of different 
technologies out here, a lot of different ways to deliver, we wanted 
to make the legislation technologically neutral.  We want to 
incentivize.
	And I come from an area of the country where I represent 30 
counties in southern Illinois.  I have got a county that has only 
5,000 residents.  I have a county that doesn't have dial up landline 
911.  So when people say mandate, mandate, mandate, guess what, 
you can't mandate to areas that don't even have 911 dial up.  They 
haven't passed the tax.  They don't even have the system.  So that 
is why voluntary incentive market-based competitive products, I 
think do a better job of encouraging full deployment, and that is 
the intent of what you are doing.
	I used to carry three, now I only have two, and the point is the 
importance of this getting information out to our citizens, our 
loved ones, is debate on redundancy, multiple systems.  Now so I 
don't miss votes, I carry two.  I used to carry three.  I used to have 
the Blackberry before it was composed with the cell phone.  I used 
to have a cell phone. I used to have a Blackberry.  I used to have a 
pager.  Now I felt like Batman with a utility belt.  Now through the 
ability of technology some people would just carry this in hopes 
that everything works perfectly.
	So can anyone talk--and maybe starting with Mr. Knapp, just 
talk about legislation as a response to concerns of the FCC and 
moving in a direction that may be focus forced, can you talk about 
your focus on redundancy?
	MR. KNAPP.  Yes.  Thank you, Congressman.  One of the 
objectives of our proceeding was to foster a more redundant robust 
system.  Today's system just relies--basically it is a branch and 
tree.  If any key link goes out there are sections of the country that 
may not get service.  So among the things that we were looking at 
are using some other technologies like satellite delivery, the 
Internet, and so forth to have a more robust way to distribute these 
emergency alert signals.
	MR. UPTON.  Does anyone else want to mention or talk about 
the importance of redundancy?
	MR. GUTTMAN-MCCABE.  Certainly, Congressman.  First of 
all, I want to thank you for having multiple wireless devices.  You 
are exactly the type of consumer that we love.  As I said in my 
opening statement we very much believe that resiliency and 
redundancy makes sense.  As Julius had mentioned, the 
Commission is looking at an alert system across multiple 
platforms, and we wholly endorse that.  I think the best way that 
we view an alert system is sort of in an--I think someone had 
mentioned earlier dropping a stone into a pond or almost a viral 
sense in that people will be alerted through different mechanisms 
whether that be word of mouth or picking up the phone after you 
have received your alert.
	So from our perspective it clearly makes sense to have 
multiple, different types of devices and then as you had said, 
Congressman, from the wireless industry's perspective, and as I 
said in response to the Chairman's question, we believe that in our 
industry competition will result in the best and most capable 
product.  I know Mr. Kelly mentioned the idea of dropping in a 
paging chip set and Mr. Pitts has a product that works to alert 
people, and Mr. Lawson has a transmission vehicle.  We are 
willing to look at and investigate all of those things, but the 
solution is not simple.
	Mr. Kelly's idea of a chip set would require people to go back 
and look at standards and do standards development because you 
can't just put a second chip into a phone this big.  It would also 
require, likely require, shielding of the existing antenna so that you 
don't cause interference within the phone from the phone to itself.  
It may cause a need for an additional antenna, additional weight, 
things like that.  It is something we would clearly consider. It is 
also along the lines of inserting the NOAA chip, which is what we 
looked at.  Again, in both those cases there is an existing 
infrastructure in place.  The question is what makes most sense 
from government's perspective and what makes most sense from 
the industry's perspective going forward.  We are willing to 
investigate all of those.
	MR. KELLY.  I would like to comment on redundancy too, if I 
could, please.  Having two devices, having a cell phone, having a 
pager we think is a good idea from the standpoint of how the 
networks operate.  If you have a large storm that goes through and 
knocks out power in a given area or it knocks off transmitters in a 
given area, your mobile phone might go down because it is 
communicating with the local transmitter whereas the way paging 
works is it simulcasts, so we are sending in a large geographic area 
the same signal to multiple towers, and so a tower can go down 
very close to you but one 10 or 15 miles away can still be 
broadcasting it very high powered, generally 3,500 watts ERP.  
You will get the signal.  We found that during Hurricane Katrina.  
We found that during 9/11.
	My written testimony has examples of where that worked.  
With respect to integrating pagers into mobile phones, I agree there 
are some technological issues that would have to be overcome.  
We have met with manufacturers who are willing to take that task 
on so the capability is there.  It is just a question of from a business 
perspective does it make sense, so redundancy is important.  And I 
guess the last thing I would say on that is when you have situations 
and they are going good, it is not so important, but you can't 
always put all your eggs in one basket and have the best 
probability of success.
	If you go to New York and you lose power in a brownout, a lot 
of communication systems are going to be down.  Pagers happen to 
put transmitters on hospitals.  Over 30 percent of most paging 
companies' base that tap into their emergency power supply so if 
you are in Manhattan and power goes off in the city a pager is 
likely to work where a mobile phone may not.  So there are just, I 
think, advantages to having both mobile phones, pagers, and many 
other technologies because you never know where the point of 
failure is going to be because you never know the type of problem 
that you are going to have.
	MR. SHIMKUS.  Billy.
	MR. PITTS.  Mr. Chairman, I agree with what Mr. Kelly says 
and he pointed it out in his remarks that on the Katrina panel we 
discussed pagers as a good redundant system.  In 1975 I put in the 
group alert system, the auto dialer for calling all the Members as 
well as what is affectionately known now as the beepers.  So you 
have to look at what is an effective warning, and it was discussed 
in detail by the Partnership for Public Warning.  It was a non-profit 
group that was in place right after 9/11 through 2005.  And the 
finding is that people tend to mill around unless they hear the voice 
of a credible spokesperson sort of telling them you've got to move, 
you've got to act.
	And we decided that the beepers would be, from the cloak 
room, an actual live voice.  And as you now know the Sergeant of 
Arms has put annunciators in all the offices with a live voice 
saying get out of the building because in many instances even 
when I was up here we would be looking at the Blackberry saying 
did you get this message saying get out of the building?  Yeah, I 
got it too.  But when you hear that voice saying get out of the 
building, there is a plane coming in, you act.  So you want to look 
at what is effective but you do want to have the redundancy that 
you are talking about.
	MR. SHIMKUS.  And thanks because I think you are reiterating.  
One thing that we want to be careful of because there is a lot of 
different technology is instead of picking one, we want everybody 
at the table--I think that is the benefit of a working group, so in 
essence we are moving together.  There may be some little friendly 
competition also, which is good, because you want to be able to 
advertise the services that you render for the consumers to 
purchase.  And my time has really expired, but I am in the chair 
and I want to make sure I ask Mr. Jackson and Ms. Allen a 
question.
	Ms. Allen, first of all, in your opening statement the basic 
question I have do you or do you not support the bill?
	MS. ALLEN.  Oh, yes, I definitely support the bill.
	MR. SHIMKUS.  That is really all I wanted to make sure I heard.  
Mr. Jackson, in your testimony you talked about the importance of 
notifying--I hope it was your testimony, notifying individuals like 
elected leaders or people in government positions first before an 
overall public broadcast of the alert.  Can you tell me why you 
think that would be helpful?
	MR. JACKSON.  Well, I think it is important, for example, in 
Prince George's County each of the agencies have an emergency 
plan and that way we would be able to notify appropriate staff to 
set things in place before the general public to minimize the chaos.  
We also have in the county under the leadership of the County 
Executive what is termed the family plan so each employee of the 
county government is encouraged to establish a family plan.
	So I can tell you that during any mission, particularly a mission 
during a disaster, the last thing we want to see in a Hurricane 
Katrina and possibly a Rita is that the officials who are to help 
those in trouble are worried about their families and so therefore 
they will concentrate more on that than they will on the mission.
	MR. SHIMKUS.  Well, you are talking about a short--I mean you 
are not talking about an extended period of time?
	MR. JACKSON.  Oh, no, sir, not at all.
	MR. SHIMKUS.  And I think the importance of that, again that 
would be the working group.  That would be what people would 
have to discuss.  A lot of our experience is September 11 based and 
a lot of text messaging that we now use is because that was 
working so we all obviously lived in an environment where 
everybody was trying to get access to information.  People in 
senior positions had information; regular rank and file, Members 
like me, we had no information, and I am not complaining about 
that, but I think the importance is that the folks who have to clear, 
make sure that the bridges are open that they mobilize early so that 
when the public is notified that there is not a run in a direction in 
which you don't want them to run.
	And if you are talking about biological, chemical, WMD, and 
wind direction, you don't want them to run people in the direction 
of where the wind is blowing.  That is the critical aspect of more 
information if possible, but there are technological limitations.
	MR. JACKSON.  Well, if I may, for example, I get messages 
from the Metro Washington COG when there is a catastrophic 
accident or even a weather warning, we get those almost 
immediately as soon as they get them and so that allows us to 
prepare accordingly.
	MR. SHIMKUS.  I am going to turn the chair over to Mr. Walden 
who is also a rural member, and thank you for your time and I look 
forward to working with you.
	MR. WALDEN.  [Presiding]  Good afternoon.  My apologies for 
not being able to be here earlier.  We had a Deputy Whip meeting I 
had to be at.  In addition to being a rural member, I am one of two 
who are actually licensed Ham radio operators, and the only 
Member who is a licensed broadcast provider.  We own and 
operate five radio stations so I have been involved with the 
Emergency Alert System over the years and its predecessor, assist 
in the Emergency Broadcast System and then as a Ham radio 
operator been involved in that respect.  And I understand there 
hasn't been much discussion yet in terms of these emergency 
crises, the role of the amateur radio community and how they 
might be able to weigh in and be of assistance.  Can any of you 
speak to that?  Mr. Knapp from the FCC's perspective?
	MR. KNAPP.  Of course the amateurs have always played a 
critical role in providing support in emergencies.  I don't know that 
this has been a particular focus in our proceeding because we have 
been focused on delivering emergency alert messages.
	MR. WALDEN.  Right.  There is some--anybody else on the 
amateur side?  Mr. Pitts?
	MR. PITTS.  Yes, sir.  During our discussion on the Katrina 
panel, the Ham operators played an important role down there in 
the coastal States.  They were probably the first up and the first 
organized to get the message out.  And to speak to a discussion that 
the sheriff was having earlier, he was describing what is called the 
classical cascading of alerts where you go through your command 
and control structure and then you get to the public.  And as part of 
the national response plan there is sort of almost a paradox here 
because when we talk about the EAS, we talk about sort of from 
the Federal or the State going down, but once there is an incident 
declared under the emergency support function number two once 
there is an incident then the telecommunications is controlled from 
the local up, so we have to make sure that the local authorities like 
Sheriff Jackson and others are able to make that communication, 
those necessary communications, as well as the outside 
communication coming down.  And I think we found with the Ham 
radio operators performed a lot of that initial function at the local 
level.
	MR. WALDEN.  Well, my own experience from some of the 
field days I have heard about and been aware of and I actually 
participated in one, they also have the equipment availability and 
the portable generators and the ability to go set up quickly a 
network, if you will, whether it is to send packet or to do voice 
transmission.  And I would think as you look at these issues when 
everything else goes sideways and law enforcement is trying to 
keep people from rioting or whatever they are doing, it is certainly 
a resource that is out there that can be very useful.
	It seemed to me in our post-9/11 briefings what worked and 
didn't.  I think I recall the former FCC Chairman saying they 
actually asked broadcasters in New York to stop using the EAS 
because it in effect was scaring people.  Is that correct?
	MR. KNAPP.  I am sorry, Congressman.  I don't know the 
answer to that but I can take it for the record.
	MR. WALDEN.  That would be interesting to know.  It seemed 
to me--I am just thinking back and a lot was happening in that 
period, and I guess while the alert process is important it has 
always seemed to me that as a broadcaster who has been through 
some local emergency situations, floods and fires and things, that 
most just went on the air full time and that was far more productive 
than in many cases a fairly garbled EAS message that is being 
chained from one station to the next to the next because in these 
rural areas it can be a long way in between in a broadcast sense 
from one station to another.
	Mr. Knapp, I understand the FCC is looking at asking the 
wireless industry to utilize cell broadcasts and technology for the 
dissemination of emergency alerts.  Some of the filings that have 
been made in that preceeding indicate the maximum transmittal 
number of characters for GSM is 93, and 256 for CDMA.  Can 
emergency alert really be useful with such a limited ability to 
communicate?
	MR. KNAPP.  We have a fairly voluminous record, and much of 
it deals with this issue.  And the carriers have said that there are 
things that can be done initially through things like short 
messaging service, the SMS service, but as the technology 
progresses and we move to third generation networks it is going to 
have more horsepower, and the messages could be much longer.
	MR. WALDEN.  What kind of a timeline do you think that is?
	MR. KNAPP.  I think what we are--some of these technologies 
are being rolled out today and there is still debate in the record as 
to how quickly that will happen.
	MR. WALDEN.  Mr. Guttman-McCabe.
	MR. GUTTMAN-MCCABE.  Congressman, on Tuesday I 
received an Amber Alert.  Sheriff Jackson spoke in his testimony 
about the wireless Amber Alerts.  On Tuesday I received an Amber 
Alert for a pair of children that they thought was abducted in 
Virginia.  And a little bit north of 100 characters basically on one 
screen, I was able to see the make, the model, the color, the license 
plate, the look of the two children, the fact that one was an infant 
and one was a toddler, that they were both African American, their 
weight, their size, what the abductor looked like, it was a woman, 
and all of that was in less than 200 characters.  So there is a way to 
do this, and what we believe is that through the WARN Act if 
initially Congress or the FCC or FEMA goes down the path of 
requiring something in the short term the industry could respond to 
that.
	And we very much appreciate the process that is in place 
through the WARN Act where you would sit down and establish 
what should be in the message and how does that fit within 
existing capabilities.  But Julius is correct.  There will be an 
evolution and our goal is to make sure that the evolution matches 
up with what is required from government, but first a key 
component is figuring out exactly what government wants, what 
the requirements are.
	MR. WALDEN.  If you can do all that with 256 characters 
maybe you can help us in writing some of these laws.  Mr. Pitts, 
congestion is a major issue when it comes to delivering emergency 
alerts.  How does your product abate the concerns about 
congestion in an emergency?
	MR. PITTS.  Yes, we use multiple LEC, Local Exchange 
Carriers, and we essentially are coming from the outside in so you 
dial a toll free number, you make your message, and then by using 
multiple LECs as well as we have these mathematical algorithms 
that essentially can tell what is congested in terms of the central 
offices or NOCs, and then moves to another exchange, so we are 
able to essentially understand, that is why we call it an intelligent 
system, understand what is happening and the message moves to a 
freer LEC.
	On the question of SMS, we deliver SMS as well.  Most of our 
clients don't do it because in the seven bit world you are limited to 
160 characters and they feel that is a burden.  I do believe many 
messages could be made and deliver under 160 characters, but I 
think in their mind they think that they are limited and they just 
don't want to start down that path.
	MR. WALDEN.  All right.  Mr. Guttman-McCabe, if the 
wireless industry can transmit Amber Alerts what makes it so 
much more difficult to transmit emergency alerts?
	MR. GUTTMAN-MCCABE.  Congressman, I would say it is not 
much more difficult.  From our perspective, what we would like to 
see is a replication of what is happening in the Amber context.  In 
the Amber context, the National Center for Missing and Exploited 
Children decided or agreed to be sort of the aggregator for the over 
100 entities that can originate an Amber message.  They, in turn, 
worked with CTIA and the carriers and an integrator was chosen, 
Syniverse in the case of the wireless carriers, who would take the 
message from the National Center and insert it into all of the 
carriers' networks through contracts and memorandums of 
understanding.
	And the process was pretty quick and straightforward.  The 
lynchpin, the key element, was the National Center agreeing to be 
the conduit.  As I am sure you are aware, right now we are working 
with the Federal Communications Commission, with FEMA, with 
the Administration and the White House executive order, and with 
Congress, and you throw in NOAA and the National Weather 
Service, and from our perspective, if we can get a sense of who is 
going to be the key conduit helping us put together the package, 
the industry will deliver the message.
	If it is in the short term, it has to be SMS.  That is the only 
capability that exists.  If it is over a longer term, we would hope, 
and through the WARN Act there is a process in place, we would 
hope that the requirements would match up with the evolution of 
the networks so that you are not requiring literally billions of 
dollars of upgrades and the changeout of hundreds of millions of 
handsets. But we are willing to embrace that.  We are fully behind 
the WARN Act.  We have been engaged with the Commission and 
have had a great relationship with Julius and the Chairman's staff, 
and we want to continue that.  We have worked on the pilot project 
with Mr. Lawson and his group and FEMA.  It can be done.  Make 
no bones about it.  It can be done.  We just need a process in place 
to tell us what you want delivered, what the requirements are, and 
then we will work from there.
	MR. WALDEN.  Okay.  I am sure Mr. Jackson may well agree 
with this but it just seems to me when we have had emergencies 
whether here on the East Coast, 9/11, or in our own communities 
with a flood or a fire, the first thing that happens you lose power or 
you lose communication, phone service, cell service, whatever, and 
the more we can build into the system the redundancy for the 
absolutely unthinkable because right now we do so much based on 
everything working.  We can pull it off.
	And even in that environment sometimes when you do a test it 
doesn't work.  Something is lost, some communication link, and it 
just seems to me for all of us that continuing to move ahead in a 
way that integrates new technologies gives us new options, new 
alternatives, so that when something does go wrong and we are all 
diverted in many different ways we have got backup systems, and 
that is where--
	MS. ALLEN.  I would like to comment on redundancy.
	MR. WALDEN.  Yeah.
	MS. ALLEN.  Redundancy brought to its lowest common 
denominator is what happened in Hancock County, Mississippi.  
We had an amateur radio operator who owned a low power FM 
radio station and during the height of the storm he was taking 
batteries out of flooded vehicles to keep the radio on the air using 
at the time very low power, but continuously operating.  And 
within 10 days after the event, that low power radio station became 
a higher power radio station and was basically the only 
communications that the people down there had.  And all of the 
infrastructure was destroyed so they no longer had access to cell 
phones and Blackberries and televisions and the like.
	FEMA handed out several thousand battery-powered radios.  
So that brought it back to the lowest common denominator of 
redundancy.  Broadcasters are first responders.
	MR. WALDEN.  Some of us think of that as the highest level of 
communication.
	MS. ALLEN.  I agree.
	MR. WALDEN.  Whether it is a few watts or a lot of watts but in 
the end that is the way to mass communicate and all these other 
new technologies are great and useful, but as the Chairman said I 
had a Blackberry on 9/11 and it worked because of the ability to e-
mail, but it didn't work in terms of being able to conduct much 
phone traffic, and that worked well.  I don't have any other 
questions for you all.  Thanks for the good work that you all are 
doing to try and help America have a better warning system and 
alert system so our citizens can be safer and our communities safer 
in these events.  We thank you for your testimony and for your 
hard work, and we look forward to continuing this process 
forward.  With that, the subcommittee is adjourned.
	[Whereupon, at 12:40 p.m., the subcommittee was adjourned.]


  The United States has a telephone penetration rate of 92.4 percent for landline phones and 62 
percent for mobile phones.  See Federal State Board on Universal Service, Order, 36 CR 1279,  8 
(2005); Implementation of Section 6002(b) of the Omnibus Budget Reconciliation Act of 1993, Tenth 
Report, FCC 05-173,  5 (rel. Sept. 20, 2005).
  Typically, TSN providers will make three (3) to five (5) attempts before considering a notification 
process complete.  Speed of delivery will vary based on congestion at the local network operations 
center. 
  See "Five Towns Look to Speed Up Reverse 911 System," Ashbury Park Press (Oct. 20, 2005).
  See A Guide for Developing Crisis Communications Plans, Michigan Crisis and Emergency Risk 
Communications, Michigan Office of Public Health Preparedness, 
http://www.michigan.gov/documents/Michigan_Crisis_Emergency_and 
Risk_Communication3_82364_7.doc (Oct. 2003); "Emergency Management Plans," Kevin Brown, 
MD, http://www.gnyha.org/eprc/general/presentations/20030204_Emergency_Plans.pdf.
  Interview with Dr. Julie Gerberding, Online NewsHour, 
http://www.pbs.org/newshour/bb/health/july-dec02/gerberding_smallpox.html.
  See Amendment of Part 73, Subpart G, of the Commission's Rules Regarding the Emergency 
Broadcast System, 10 FCC Rcd 1786,  174 (1994).


</pre></body></html>
